<html>
<title> - NATIONAL PARKS OF FLORIDA</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                       NATIONAL PARKS OF FLORIDA

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 11, 2006

                               __________

                           Serial No. 109-149

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
28-170                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
               Mark Pfundstein, Professional Staff Member
                           Malia Holst, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 11, 2006.................................     1
Statement of:
    Fields, Sherri, Chief, Natural Resources Division, Southeast 
      Region, National Park Service..............................     8
    Reed, Nathaniel, member of National Council, National Parks 
      Conservation Association; and Dexter Lehtinen, senior 
      member, South Florida Ecosystem Restoration Task Force.....    35
        Lehtinen, Dexter.........................................    62
        Reed, Nathaniel..........................................    35
Letters, statements, etc., submitted for the record by:
    Fields, Sherri, Chief, Natural Resources Division, Southeast 
      Region, National Park Service, prepared statement of.......    12
    Lehtinen, Dexter, senior member, South Florida Ecosystem 
      Restoration Task Force , prepared statement of.............    69
    Reed, Nathaniel, member of National Council, National Parks 
      Conservation Association, prepared statement of............    41
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     5


                       NATIONAL PARKS OF FLORIDA

                              ----------                              


                      WEDNESDAY, JANUARY 11, 2006

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                         Miami, FL.
    The subcommittee met, pursuant to notice, at 2:05 p.m., at 
Miami City Hall in Coconut Grove, Miami, FL, Hon. Mark E. 
Souder (chairman of the subcommittee) presiding.
    Present: Representatives Souder and Ros-Lehtinen.
    Staff present: Marc Wheat, staff director; Jim Kaiser, 
counsel; Mark Pfundstein, professional staff member; and Malia 
Holst, clerk.
    Mr. Souder. If we could have order, I'm going to go ahead 
and start the hearing.
    Good afternoon, the subcommittee will come to order.
    Thank you for joining us today. This is the eighth in a 
series of hearings focusing on the critical issues facing the 
National Park Service. I would like to welcome the Members of 
Congress who have joined us today, my wonderful colleague from 
the State of Florida, and those who care deeply about the 
national parks.
    Thus far, we've not only had a Washington hearing, we've 
had field hearings in Gettysburg, Boston, Seattle, San 
Francisco, Honolulu, Grand Canyon, Flagstaff, we have one 
scheduled in February for Atlanta. We'll have one in Anchorage 
in August, and we don't have the date set yet for the Indiana 
Dunes and the Chicago area, and we may do one in the Rockies. 
The point here is to try to do them regionally around the 
country, see what things are different in each region, and 
which things are the same. This is, by far, the most 
comprehensive series of hearings that has ever been done in the 
National Park Service. There are, obviously, the Resources 
Committee and the National Parks Subcommittee, of which I spent 
probably about, I think, the last 6 years up until this year 
when I took leave to go back to education, actually, in 2005. 
We do occasional oversight, but there you are dealing with the 
day-to-day alterations to land, new heritage areas, different 
debates, and once in a while you may do a thing on 
demonstration fees or that, but you don't do a comprehensive 
oversight and analysis. And, that's really the purpose of the 
Government Reform Committee, which existed actually before the 
authorizing committees.
    Historically, Congress always had appropriations committees 
and the next group was the oversight, and then the third thing 
was the authorizing. It was a somewhat rocky start to get these 
hearings done, because the Government Reform Committee has 
never done anything before in the parks and resources area. So, 
everybody who thought it was solely their jurisdiction was not 
thrilled with these hearings. The administration thought that 
this would be a constant push for more money. The different 
subcommittees were concerned about jurisdiction, but as we 
worked through, basically, hey, that's what we do in Government 
Reform. Last year we were probably most famous for Mark McGuire 
saying to our committee that he didn't want to talk about the 
past, which, of course, in an oversight committee that's what 
we do, is we talk about the past to try to set up about the 
future, where if you look at the process, Congress spends the 
money. If you look at it, say, in education, Education 
Committee would set the policy and the authorizing, fund it 
through the Appropriations Education Subcommittee, and then the 
Government Reform from Education would do oversight.
    So, every cycle our committee predominantly focuses, 
because we do authorizing and oversight, on narcotics, and have 
spent much of this week in Florida on that issue. But because 
we have a broad range, and we can't ever do complete oversight 
over anything, the chairman has wide discretion working with 
the ranking member to choose what areas that you want to do 
oversight on.
    For example, the departments that we have oversight over 
would be anything with narcotics, which overlaps heavily into 
homeland security, because we are the primary border 
subcommittee, but we also have Health and Human Services, HHS, 
Education, HUD, Justice, and we one other one, it's basically 
70 percent of the budget that--and then I traded Commerce to 
get Park Service. In addition, we have the White House 
Oversight on Faith-Based and other White House operations, so 
it's wide ranging. And, I chose this cycle that I wanted to 
focus on the Park Service. I think with the 100th birthday 
coming up that it's important that we look at this like we did 
Mission 66 prior to 1966 for the 50th birthday, and say where 
is the Park Service headed? What do we do? What do we want it 
to look like in the 100th birthday, and what do we want it to 
look like for future generations after the 100th birthday. And, 
whenever you have these huge timing periods, like the 
anniversaries, it's a time when you do reanalysis to look at 
this.
    This hearing will focus on the parks of Florida. In most of 
these we highlight one, like the Grand Canyon, but then do that 
region. Last year, millions of Americans visited the State of 
Florida and millions more live here. Many of these people visit 
any of the 10 National Park Service units located here. These 
sites are historic, cultural, and natural, and all make unique 
contributions to the Park Service.
    Florida is the home of the first permanent European 
settlement in the continental United States. This story is 
preserved at the Castillo de San Marcos in St. Augustine, which 
I visited earlier this week.
    Perhaps the best known of the Florida's units is Everglades 
National Park. This park protects unique ecosystems, endangered 
species, and water quality in south Florida. Importantly, the 
Everglades are in a state of renewal and restoration. This 
restoration has been controversial and expensive, but can teach 
us much about preservation, environmental impairment, and 
restoration.
    When the Republicans took over in 1994, the year that I 
came in, due to the leadership of the south Florida delegation 
they got, basically, Speaker Gingrich became interested in this 
and really initiated kind of an awareness more than had ever 
been in the U.S. Congress, broad-based, that we needed to 
address this whole question of population growth and the 
uniqueness of water.
    West of the Mississippi in the Resources Committee that is 
what you debate all the time, is water; basically, who gets 
what percentage of the Colorado River, and how can they move 
it, and can they steal some of the Great Lakes water because 
they don't have enough out of the Colorado River. That's, 
basically, what the Resources Committee does. If they are not 
talking about forest fires, they are talking about water.
    But, east of the Mississippi we don't talk about it as 
much, except down here in Florida where this is a kind of where 
you took a whole State that used to be wet, and now have built 
it heavily, and what does that do to the ecosystem of the State 
of Florida, and how does Florida resolve this.
    A critical part of the parks of south Florida is 
environmental preservation. Of particular importance is the 
conservation of unique coral formations. These reefs provide 
homes, not only to unique wildlife, but also support human 
existence through water purification and protection from the 
ocean's fury.
    The National Park Service is facing many challenges and 
problems. Management and funding are of constant concern to all 
park units. Underneath these problems are problems special to 
each park unit. In Florida, environmental degradation is of 
particular concern.
    As we have frequently seen over the last few years, Florida 
sits directly in the path of hurricanes. These storms disrupt 
the day-to-day living of Florida's citizens and the balance of 
nature. Although hurricanes are themselves natural phenomena, 
they can and do destroy nature's delicate balance. They also 
damage Park Service assets which conserve the ecology of 
Florida and facilitate visits to these exceptional areas. 
Restoration and rehabilitation of park facilities in the face 
of recurring hurricanes is certainly a daunting task that will 
not end, but perhaps can be improved as we learn more about 
nature and hurricanes.
    I would like to welcome Congresswoman Ileana Ros-Lehtinen 
to this hearing. Although she is not a member of this 
subcommittee, she is a member of the full Committee on 
Government Reform, and one of the more senior members. I think 
we are probably two of the five or six most senior members on 
the committee, she more senior than I. Congresswoman Ros-
Lehtinen is a strong advocate for Florida and for the national 
parks.
    On our first panel, I'd like welcome to Sherri Fields, 
chief of the Natural Resources Division of the Southeast Region 
of the National Park Service. She will be joined during the 
question time by Superintendents Karen Gustin of Big Cypress 
National Preserve, Dan Kimball from the Everglades National 
Park, and Mark Lewis from the Biscayne National Park.
    Our second panel will be Nathaniel Reed with the National 
Park Conversation Association and also Dexter Lehtinen with the 
South Florida Ecosystem Restoration Task Force.
    I also want to point out that you don't see that many field 
hearings working without the minority member, but we have a 
very bipartisan approach, which a lot of times people think all 
we do in Congress is fight, but, in fact, we work together on a 
number of issues. And Elijah Cummings is the ranking member on 
this subcommittee, and almost everything we do on narcotics, 
everything we do on parks, has been bipartisan, and it requires 
the minority and the majority to be working together to be able 
to do these type of field hearings, which we've done around the 
country, and we've been able to do that even in the continued 
and difficult atmosphere in Washington. But it's very important 
in the legacy of the National Park Service that we try to 
maintain as much as possible a bipartisan support base, so that 
the Park Service survives no matter which party takes control, 
and no matter which branch of which party takes control, it has 
to be something that can survive through multiple generations 
and changes in the political system.
    With that, I'd like to yield to my friend and colleague, 
Ms. Ileana Ros-Lehtinen.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T8170.043
    
    [GRAPHIC] [TIFF OMITTED] T8170.044
    
    Ms. Ros-Lehtinen. Thank you so much, Mark, and I thank you 
and your wonderful hard work down here. The Park Service is a 
very important part of our daily life in all of Florida, and 
especially south Florida, and not just for tourists, but native 
Miamians enjoy the beauty of our parks as well. And, I'm so 
delighted that you've asked the superintendents and the 
different officials from the National Park Services to testify 
today, Sherri Fields, Karen Gustin, Dan Kimball, Mark Lewis, 
representing Everglades National Park, Biscayne National Park, 
etc.
    And, this hearing is very important, because we've had a 
very difficult hurricane season. As you pointed out, it's a 
natural phenomenon, but it's had a devastating impact, and no 
area of south Florida has been immune from the impact, 
certainly not the parks themselves.
    I'm blessed to have Biscayne National Park and Dry Tortugas 
National Parks in my congressional district, and my colleague, 
Mario Diaz, is blessed to have Everglades National Park in his 
congressional district. So, a lot of us share the common 
problems that the parks are facing with continued use and 
making sure that we can keep our natural resources for the 
enjoyment of mankind, as well as for the beauty that it has for 
the tourists who come down here.
    I've got, almost 70 miles west of Key West lies a cluster 
of seven islands composed of coral reefs and sand called the 
Dry Tortugas, and I know that you will be visiting this area 
shortly, along with the surrounding shoals and waters they make 
up what is called the Dry Tortugas National Park. The area is 
known for its famous birds and marine life, and this is 
certainly a pristine national park. It's got exquisite reefs, 
abundant sea life, and impressive numbers of birds, and it's 
one of our greatest natural treasures, but it needs mankind to 
make sure that we can keep these areas as pristine as possible, 
yet allow folks to use these treasures as well. I don't think 
that park should be run like by a librarian who hates it when 
somebody comes into the library to take a book off the shelf, 
because then it disturbs the order of the books on the shelf. 
National parks are to be enjoyed by all of us as well, and 
we've got to find that balance so that they can be open and 
enjoyed by everyone.
    And, as we know, and you pointed out, Mr. Chairman, in your 
opening statement, the National Park Service had its founding 
in 1916. It's grown substantially, and it's caused an 
escalation and a demand of its resources, and we need to work 
together to determine how we can best address the needs of the 
National Park Service, especially here in south Florida. Our 
national parks in our area are facing many challenges, the 
hurricane season that I mentioned had an especially devastating 
impact on our parks. For example, in Everglades National Park 
one of the world's greatest natural resources, it draws 
thousands of visitors annually, it's critical that visitors 
have access to all areas of the park. The Flamingo Lodge 
suffered great damage from our hurricanes, and I hope that the 
National Park Service plans to rebuild the Flamingo Lodge so 
that it can be used by our community and visitors alike.
    The Everglades is one of the most precious and abundant 
fish and wildlife preserves in the United States, and 
protection of this unique habitat has been a national priority, 
and we take great pride being in south Florida saying that 
we've got this beautiful treasure right in our backyard.
    So, I want to thank you, Mr. Chairman, for holding this 
timely hearing, for coming down here and being able to 
experience it yourself, for examining the crucial issues that 
we are facing, such as the preservation, and the maintenance, 
and the law enforcement, and homeland security aspects of 
national parks as well, and I look forward to the testimony of 
the superintendents and the distinguished panel of witnesses, 
and welcome the opportunity to work together with you, Mr. 
Chairman, and your staff, and other members of the subcommittee 
to ensure that our national parks are properly preserved and 
maintained so that we can enjoy them for my daughter's 
generation.
    Thank you.
    Mr. Souder. Thank you very much.
    Before we hear testimony, we need to take care of some 
procedural matters. First, I ask unanimous consent that all 
Members have 5 legislative days to submit written statements 
and questions for the hearing record, that the answers to 
written questions provided by the witnesses also be included in 
the record.
    Without objection, it is so ordered.
    Second, I ask unanimous consent that all exhibits, 
documents and other materials referred to by Members and 
witnesses may be included in the hearing record, and that all 
Members be permitted to revise and extend their remarks.
    Without objection, it is so ordered.
    Finally, I ask unanimous consent that all Members present 
be permitted to participate in the hearing.
    Without objection, it is so ordered.
    Our first panel, if you would come forward, is Sherri 
Fields, Chief of Natural Resources Division, Southeast Region 
of the National Park Service. She will be accompanied by Karen 
Gustin, superintendent of Big Cypress National Preserve, Dan 
Kimball, superintendent of Everglades National Park, and Mark 
Lewis, superintendent of Biscayne National Park.
    And, if you could all come up, I'll actually need to swear 
you in. Normally, this isn't a big deal, but we do this as an 
oversight committee, Raphael Palmeiro found it can be a big 
deal, hopefully, we won't have to do any of that. If you'd 
raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative, and I understand that Sherri will 
be giving--Ms. Fields will be giving the testimony, and then 
the others will be available for questions.
    The rest of you can sit now, if you want, during the 
testimony, and then as we get into questioning we'll do that.
    Ms. Fields.

STATEMENT OF SHERRI FIELDS, CHIEF, NATURAL RESOURCES DIVISION, 
            SOUTHEAST REGION, NATIONAL PARK SERVICE

    Ms. Fields. Great, thank you, Mr. Chairman. I really 
appreciate this opportunity to appear before you today, to 
discuss some key issues facing the national parks here in 
Florida, with particular focus on the cost of restoring natural 
landscapes.
    I will take the next few minutes to present a few short 
remarks, while providing a more complete written testimony for 
the record.
    First, on behalf of the National Park Service, I would like 
to acknowledge and thank Congress for its continuing support of 
our parks and programs in the Southeast Region, as well as the 
entire National Park System.
    With me today are Karen Gustin, superintendent of Big 
Cypress National Preserve, Dan Kimball, superintendent of 
Everglades National Park and Dry Tortugas National Park, and 
Mark Lewis, superintendent of Biscayne National Park. They will 
be happy to answer any specific questions about their parks at 
the conclusion of my testimony.
    The State of Florida is home to 11 units of the National 
Park System, including Fort Caroline and DeSoto National 
Memorials, Canaveral and Gov Island National Seashores, 
Castillo de San Marcos and Fort Matanzas National Monuments, 
and the Timucuan Ecological and Historic Preserve.
    Here in south Florida, we manage the three largest, and 
arguably most ecologically significant areas in the State. 
Everglades National Park, the largest remaining sub-tropical 
wilderness in the United States, Biscayne National Park, the 
largest marine park in the National Park System, and Big 
Cypress National Preserve, the first national preserve in the 
National Park System. Approximately 70 miles west of Key West, 
FL is Dry Tortugas, a cluster of seven islands surrounding 
shoals and waters, and which includes Fort Jefferson, one of 
the largest coastal forts ever built.
    In 2004, Park Service units in Florida welcomed more than 9 
million visitors, who generated millions of dollars in economic 
benefits to surrounding communities. The Park Service respects 
the responsibilities entrusted to us by the American people, 
and our focus remains fixed on protecting these places for the 
enjoyment of present and future generations.
    As is the case throughout the National Park System, parks 
in Florida are funded from several different sources, to help 
carry out their important missions. Congress appropriated more 
than $31.5 million for the operation of the national parks of 
Florida in fiscal year 2005. This is an increase of 6 percent 
from 2004.
    In addition to these base funds, many units receive cyclic 
maintenance funds, and some construction and land acquisition 
funds designated for individual parks in annual appropriations 
bills. Parks also collect concession fees, transportation fees 
and recreation fees. For fiscal year 2005, Florida parks 
received over $3.3 million from the 80 percent portion of the 
recreation fees that individual parks retain, which were used 
for projects that benefit visitors.
    In addition, Florida parks receive a great deal of 
financial and in-kind support from cooperating associations, 
fringe groups and other partnership entities.
    I would now like to touch on some significant initiatives 
and issues of great importance to our parks here in south 
Florida.
    The Everglades National Park Protection and Expansion Act 
of 1989 authorized the addition of over 109,000 acres of the 
northeast Shark River slew to the park. The act directed the 
Army Corps of Engineers to improve water deliveries to 
Everglades National Park and to the extent practicable take 
steps to restore the natural hydrologic conditions and the 
biological abundance and diversity of the park.
    Through fiscal year 2005, the project received $191 million 
in Park Service construction funds and $100 million from the 
Land and Water Conservation Fund, for the purpose of acquiring 
the East Everglades addition to Everglades National Park, and 
to implement the Modified Water Deliveries Project. All but 500 
acres have been acquired, and several components of the project 
have been completed.
    For fiscal year 2006, the Congress appropriated an 
additional $60 million to the Park Service and the Corps to 
carry out the modified Water Deliveries Project.
    In 2000, Congress passed the Comprehensive Everglades 
Restoration Plan [CERP], a State and Federal partnership that 
is estimated to cost $12 billion and take several decades to 
complete. The six to eight project components comprising CERP 
are intended to provide benefits for the natural eco system, 
while also providing for urban and agricultural uses.
    To date, the State and Federal Governments have established 
the legal assurances in the form of a binding and enforceable 
agreement, as well as programmatic regulations to ensure that 
appropriate quantities of water that are produced by CERP are 
set aside by the State of Florida and dedicated and managed for 
the restoration of the Everglades Natural System.
    Last year, the State of Florida announced its initiative to 
accelerate elements of the CERP and commit the funding 
necessary to plan, design and construct these projects. This 
evidence of the State's commitment of more than $1.5 billion 
provides the opportunity to jump start the restoration plan 
agenda and is a major boost for Everglades restoration.
    While south Florida eco system restoration will provide for 
long-term benefits to the quantity, timing and quality of water 
flowing through the system, shorter term efforts are also 
underway to address the single greatest threat to native plant 
communities at our parks, non-native, invasive plants. For 
example, at Everglades National Park and Big Cypress National 
Preserve there are approximately 1,000 plant species recorded. 
Of these, more than 200 species are exotic invasives. With the 
generous funds appropriated by Congress for our Exotic Plant 
Management Teams, we have been able to forge an attack on 
species such as melaluca, old world climbing fern, resilient 
pepper, and Australian pine.
    Recognizing that invasive species cross geographic and 
jurisdictional boundaries, collaborative efforts among Federal, 
Tribal, State and local entities, and willing private 
landowners, can be highly effective in managing a shared 
problem. The partnership between the Park Service and the State 
Department of Environmental Protection is an example of how 
collaboration and leveraging of funds can result in significant 
strides toward addressing this issue.
    From 2000 to 2005, the State has nearly matched dollar for 
dollar Park Service funds to treat invasive plants and over 
398,000 acres of park lands.
    There are a number of other natural resource challenges 
facing our parks, which I do not have time to address, but they 
include the restoration of seagrass beds and coral reefs 
damaged by vessel groundings at Biscayne, protecting wetlands 
and managing for off-road vehicle use at Big Cypress, and 
managing the recently implemented research natural area at Dry 
Tortugas.
    Finally, Mr. Chairman, it is apparent that the devastation 
caused by the two most destructive hurricane seasons in recent 
memory has been imprinted in the minds of millions of 
Americans. The national parks of Florida were also severely 
impacted by those storms. The high winds and storm surge 
resulted in damage to piers, historic structures, park 
facilities, staff residences, lodges, cabins, vegetation, 
trails, wildlife species and coral reefs.
    Though the parks are actively working to address damages 
from the hurricanes, we are still undergoing natural resource 
damage assessments. In some cases, the full and cumulative 
extent of damage and needed restoration costs will not be known 
until the additional damage assessments are completed.
    In conclusion, we are deeply committed to protecting the 
places in our care and ensuring quality visitor experiences for 
present and future generations. We deeply appreciate the 
support parks have received from you and from Congress. Thank 
you for the opportunity to be here today. We will be happy to 
respond to any questions you or other Members may have.
    [The prepared statement of Ms. Fields follows:]

    [GRAPHIC] [TIFF OMITTED] T8170.045
    
    [GRAPHIC] [TIFF OMITTED] T8170.046
    
    [GRAPHIC] [TIFF OMITTED] T8170.047
    
    [GRAPHIC] [TIFF OMITTED] T8170.048
    
    [GRAPHIC] [TIFF OMITTED] T8170.049
    
    [GRAPHIC] [TIFF OMITTED] T8170.050
    
    Mr. Souder. First, what I would like to do is start with 
some general--and we may followup with staff as far as 
particular dates so we can have some comparison between the 
regions, but if you could give us, by park in your zone, the 
full-time equivalent, the FTEs of the employees you had in, I 
will say, 2000, 2003, 2005, but the ideal thing will be to 
match up with what I've requested at other hearings, so we may 
change those dates slightly.
    Part of our challenge here is, Congress, basically, is 
making the fundamental decision of how much we fund the Park 
Service, along with each administration. But, we need to know 
what tradeoffs we are making, and one of those things is to get 
a handle on what's happening in the staffing question.
    A second part of that is, if you could show us the--I don't 
know how else to say this, but we can work with staff and your 
office, the regular dollars you receive in the budget, in other 
words, what is southeast, what are your 10 parks getting, is it 
increasing, declining, going with inflation? We are roughly 
doing 3 percent on the Park Service, they are getting around 3, 
not counting the plus up for the Everglades Project. And, we'll 
have to figure out how we put something like that back in, 
because clearly it's coming into your zone, but one of the 
fundamentals is, is it coming into your zone, and how much of 
that comes out of your regular budget, how much of that was 
actually new money, and the only way for us to tell that is to 
get some kind of, what's your baseline operations, and then 
what do we put in when we add a unit? Because one of the things 
we do all the time in Congress is we vote for a new heritage 
area, we vote for a new park, we vote for an extension for a 
park, without calculating or being told, quite frankly, what 
that means in tradeoffs if we are not increasing the dollars by 
an equivalent amount when we do that.
    And, the only way we can do that for our report is get some 
of the baseline data, so that then we can try to analyze and 
try to tell region by region what tradeoffs we are making, 
because clearly we have to make tradeoffs. We are making 
tradeoffs in Medicare. We are making tradeoffs in Social 
Security, and child abuse support we are making tradeoffs, and 
what type of things, weapon systems and everything else, 
there's some of that in the Park Service too, but the goal of 
this report is to kind of document some of that tradeoff that 
we don't really--we haven't really done an oversight study on 
before. The tradeoffs have been done inside the administration.
    Another broad question, have you had agents transferred out 
of your parks for homeland security purposes, or do you tend to 
get agents transferred to your zone?
    Maybe each of the superintendents could come up, and if you 
don't have a district wide, maybe you could each say about your 
three parks at least. Have you had--when homeland security 
pressures became kind of greatest after September 11th, and 
then in not counting--I'm going to ask separate hurricane 
questions, if you could start maybe with the Everglades.
    Mr. Kimball. Thank you, Mr. Chairman, and I'm very pleased 
to be here today, thank you for holding this hearing.
    My understanding is that your different, Code Orange, Code 
Red, whatever, that actually Everglades National Park, we did 
not permanently transfer any rangers to homeland security or 
any other Federal entity.
    That being said, we did send rangers from Everglades to 
various locations around the country to provide enhanced levels 
of security.
    Mr. Souder. Is that happening on a regular, ongoing basis, 
or that just happened right after September 11th?
    Mr. Kimball. I think--that was before I got to Everglades, 
but as far as I know there were certain--I would presume if we 
went to an elevated code, a threat level, that, in fact, they 
would draw upon Everglades law enforcement, fully commissioned 
law enforcement rangers, who would, in fact, then go to 
Washington or other locations with the Park Service or other 
locations.
    Mr. Lewis. All of the parks were asked to provide law 
enforcement protection rangers, commissioned rangers, that were 
sent to dams, to icon parks, to places both within and without 
of the National Park Service, and that lasted over a period of 
about a year and a half or 2 years.
    During that time, it was not uncommon for a park that, just 
say as an example, may have had eight or nine law enforcement 
commission rangers on staff, may have two of those rangers out 
of the park for a month at a time.
    Mr. Souder. And, that happened at Key Biscayne, too?
    Mr. Lewis. I have been at Biscayne National Park for a 
total of about 4 months, so I can't answer your question 
directly. It did occur at the park that I was at prior to this.
    Mr. Souder. Which was?
    Mr. Lewis. Horseshoe Bend National Military Park, also in 
the Southeast Region.
    Ms. Gustin. Thank you, Mr. Chairman.
    I've been at Big Cypress for about 8 months, and so I don't 
know exactly what the situation was at Big Cypress after 
September 11th, but prior to that I was at Pictured Rocks 
National Lakeshore up on Lake Superior, and we had law 
enforcement commission rangers that would rotate out to these 
icon parks, like the Archer, Independence Dam recreation areas 
for a period of about 3 weeks, and that did last for about year 
and a half to 2 years. And, we had probably one person gone on 
a fairly regular basis during that time from our current--from 
the staff that we had.
    Mr. Souder. In any of your three parks, when we go to a 
higher standard, are anything particular targets there that are 
increased? Have you identified in your parks, yes, hydrology, 
water systems are at risk and, therefore, you need to also put 
ranger protection on those sites?
    Mr. Kimball. I don't believe Everglades or Dry Tortugas 
National Parks are identified as icon parks that would warrant 
additional security measures, Mr. Chairman.
    Ms. Gustin. That would--same for Big Cypress.
    Mr. Lewis. And, the same for Biscayne National Park.
    Mr. Souder. And, if you could check, we'll let the record 
stand that--what would be helpful, if you could each provide 
for the record, so we can have a base here, how many law 
enforcement rangers you have at your park, and if you can get 
some idea on the standard how many were transferred, because 
one of the key questions here, is how do we--should there be a 
separate homeland security allocation given the icons and the 
Park Service, much like we do with highways and the Park 
Service, because of demands in the system that are put on the 
system?
    Also, presumably, maybe Mr. Kimball you could say, what 
does the law enforcement ranger do at the Everglades National 
Park?
    Mr. Kimball. A wide range of activities, everything from 
standard law enforcement to patrolling our park road, to 
patrolling out on Florida Bay looking for resource violations, 
in some cases dealing with resource issues, a full, wide range 
of things, perhaps, meeting visitors and doing interpretation, 
and possibly responding to an alert from a visitor that a 
python has been cited.
    So, it's fairly safe to say that while some things might be 
able to be reduced in function, law enforcement rangers are not 
something that's easily automated.
    Mr. Souder. I'm sorry, easily automated?
    Mr. Kimball. No.
    Mr. Souder. In other words, as far as protecting panthers, 
protecting whether people are poaching, protecting campers, 
requires a person.
    Mr. Kimball. Yeah, they provide a full range of services 
for the Park Service, and they have extensive training, and 
most of--a large number of our law enforcement rangers, because 
of the distance from a hospital or emergency technicians, are 
medical technicians, EMTs.
    Mr. Souder. So, when you have refugees come in to the Dry 
Tortugas, are those law enforcement rangers that would handle 
that?
    Mr. Kimball. Yes. We do work with the U.S. Coast Guard and 
Homeland Security. When they land at the fort, it's really an 
all-hands drill. I would be happy to explain the process, and 
we can talk about that when we are going out to the fort on 
Friday, but it is a security matter, it is a homeland security 
matter when they arrive at the fort, dry foot, and at that 
point we maintain security and either have the U.S. Coast Guard 
come and pick them up, or we, in fact, bring our boat out some 
time to take them back to authorities in Key West.
    Mr. Souder. So, roughly, how many law enforcement rangers 
do you have?
    Mr. Kimball. We have five law enforcement rangers at Dry 
Tortugas National Park, with a total staff of 13.
    Mr. Souder. And, Everglades?
    Mr. Kimball. Law enforcement?
    Mr. Souder. Yes.
    Mr. Kimball. We have a total of 28, and we have an 
allocation of 33, so at this point we have five unfunded law 
enforcement rangers.
    Mr. Souder. So, you are already down five to six, and if 
you had the two of nine ratio you conceivably could have had as 
many as six gone at the highest levels of elevation after 
September 11th from Everglades, and possibly another one from 
Dry Tortugas.
    Mr. Kimball. Possibly. We can go back and look to see how 
many, in fact, what the draw was.
    Mr. Souder. My question is that how--is it safe to say that 
your pressures on law enforcement haven't decreased at 
Everglades Park?
    Mr. Kimball. Our law enforcement needs assessment and our V 
wrap shows a requirement of 52 law enforcement rangers. 
Obviously, we are not at that level. We are looking at a lot of 
other ways of getting assistance, and I'd be happy to explain 
some of those things that do provide assistance and additional 
law enforcement rangers with some additional sources of 
funding.
    Mr. Souder. It would be very helpful if you could provide 
that for the record.
    Mr. Kimball. I'd be happy to.
    Mr. Souder. So we would have that, because one of the 
questions is, when you are multi-tasked to protect increasing--
in many cases increasing numbers of visitors, plus the 
resources, plus the wildlife, which would be part of the 
resources, and then rangers are taken away, and if the demand 
is increasing, but the number of people are reducing, the 
question is, what tradeoff are we making?
    And, in fact, you know, what is the effect? Are visitors 
less safe? Have you had a resource reduction, increase in 
poaching? What, in fact, happens when we reduce that, or, in 
fact, have we overestimated the number of rangers we need? 
That's the tradeoff.
    Do either of you have any comments on the rangers and on 
your resources, that discussion? Would you say that your law 
enforcement need has declined?
    Mr. Lewis. Our need has declined?
    Mr. Souder. Yeah.
    Ms. Gustin. The need?
    Mr. Lewis. I would not say that our need has declined. At 
Biscayne National Park, the park covers 173,000 acres, most of 
that is over water. And, if we were at full staff with our 
protection staff we would have seven people.
    When you consider people being on blue days, and people 
being on, you know, vacations every now and then, and training, 
that's pretty short staffed. Right now we've got five 
positions, two of those that are filled, two of those positions 
are not filled, and we are in the process of trying to fill 
those now.
    Mr. Souder. Are your positions law enforcement mostly 
focused on protecting coral or wildlife, or on people who are 
there?
    Mr. Lewis. Quite honestly, we spend most of our time right 
now dealing with people. We find it difficult to really get out 
on the reefs, where we would like to be. One of the reasons 
that the park was established, of course, was because of the 
beautiful coral reefs which make up about 33 miles of the park. 
We spend so much time dealing with people issues that we don't 
get out and spend a lot of time on resource protection.
    Now, we do have other staff members who are not 
commissioned rangers, who do spend time doing resource 
management programs, archeological programs, and things of that 
nature, but to answer your question, we are not over staffed.
    Mr. Souder. Ms. Gustin, we stopped coming across from the 
west side at the visitor center on Big Cypress a few hours ago.
    Ms. Gustin. Right, good.
    Mr. Souder. Are those--that's comparatively new in the 
system, visitor center?
    Ms. Gustin. The Oasis Visitor Center?
    Mr. Souder. Yes.
    Ms. Gustin. No, that's been around for quite a while.
    Mr. Souder. OK. Now, what about, have you expanded 
facilities there? Are you getting more visitors? How is Big 
Cypress evolving?
    Ms. Gustin. Right. We have a permanent law enforcement 
staff currently of about eight law enforcement rangers. That 
includes our chief ranger who is the program manager for the 
division. And then, we have three unfunded positions.
    And, similar to Everglades and Biscayne, our rangers do a 
wide variety of functions, from road patrol, to campground 
patrol, to wildlife violations, and spend a lot of time dealing 
with people, of course.
    And, to answer your first question, I would not say our 
need is decreasing. We get about a half a million visitors a 
year into Big Cypress, and our total acres is 730,000 acres. 
Out of those 730,000 acres, we have approximately 150,000 that 
are part of a new part of the park called the Addition, that 
was acquired in 1988, and that will offer us a new challenge as 
far as managing from a resource protection and law enforcement 
standpoint is concerned.
    So, our needs are increasing, I think probably every park 
would say the same.
    Mr. Souder. OK.
    Before following up with some more questions I'll yield to 
my colleague.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    Thank you, all of you, for being here today.
    I had a few questions. Regarding the Coral Reef Restoration 
Project at Biscayne National Park, Ms. Fields' testimony says, 
``Although many different technologies for coral reef 
restoration have been tried, success has been meager and 
difficult to quantify. The inability to satisfactorily restore 
damaged coral reefs is due in large part to limited 
understanding of coral reef ecology.'' I wanted to get more 
background about why we would have such limited understanding. 
It seems that so much has been written, and explored and 
studied about coral reef, our understanding of coral reef 
ecology. What knowledge do we need that would----
    Mr. Lewis. I am guessing Sherri wants me to field this one.
    Ms. Ros-Lehtinen. Do we need a Jacques Gusteau?
    Mr. Lewis. An example, coral bleaching is an event that's 
been taking place over the last 10 to 12 years at an increased 
rate. We don't know why it occurs. We've got a lot of antidotal 
evidence of some of the characteristics of the sea that are 
occurring when coral bleaching occurs, but we honestly don't 
know. It's probably some combination of related to temperature, 
of ultra violet radiation, of, you know, a number of different 
things, pollution.
    We do know, and I know you are an avid water enthusiast, 
you may have been in the water over the reefs in the park. You 
can swim along and there will be reef sections that are 
absolutely gorgeous, beautiful, and then right beside it there 
will be a piece of reef that's just bleached out white. It 
might have a shell sitting on top of a piece of brain coral and 
you pick up that shell and what had been shielded from the 
sunlight isn't bleached out.
    There's just, to be honest with you, yeah, there has been a 
lot of study going on over the last 50 years about reefs, but 
there's just so much that we don't understand. Part of our 
process, or one of our programs of revitalizing damaged reef 
areas, includes going out when there's been a grounding and we 
have reef damaged and destroyed, going out and actually picking 
up pieces of reef that are very small, that probably would 
never grow again, and we take them into a nursery and we're 
trying to grow them so that we can actually use those pieces 
once they've grown larger to restore other damaged areas.
    So, we are doing a number of different things, but we have 
not had a great deal of success, quite honestly.
    Ms. Ros-Lehtinen. Thank you.
    We have such a great educational facility in the University 
of Miami Rosenstiel School. Does the Park Service partner with 
any educational institutions to try to get that background, 
because I know it is here in Ms. Fields' testimony about the 
hurricane damage. She says, ``Our limited understanding of the 
underwater environment forces us to rely on natural processes 
for the vast majority of recovery processes within the reef 
tracks.'' So again, that lack of understanding, there are great 
educational facilities.
    Mr. Lewis. We have a number of relationships with the 
universities, with NOAA, their National Marine Fisheries 
Section, with different Park Service units, with the Coral Reef 
Task Force. We've got relationships with tons of people, we 
truly do, and all of us are working together to try to come to 
grips on this, and be able to be more effective in our Resource 
Restoration Projects.
    Ms. Ros-Lehtinen. Thank you, Mr. Lewis.
    On the issue of hurricanes, and the impact that it's had on 
so many of our parks, Biscayne National Park, Ms. Fields' 
testimony said, ``Although trails have now been reopened, salt 
spray from the storms has killed much of the leafy cover, 
slowing recovery.'' When do you expect full recovery, if at 
all, from this devastating season, and what can we expect from 
the next hurricane season, and is there anything that the 
National Park Service can do to protect these habitats from 
future wreckage?
    Mr. Lewis. One of the challenges that we face is finding 
funding sources to do the type of monitoring that we want to do 
and need to do to. I mean, we can go out to Elliott Key, you 
can go out to Elliott Key tomorrow, and if you walk on our 
ocean-side boardwalk, well, first of all, you won't be able to, 
walk on the trail because the boardwalk is not there anymore 
from the hurricane, but you'll see a great number, a great 
percentage of the vegetation out on the island is turning 
brown, and grey, and the leaves are going to drop. What the 
degree of chill is going to be, we don't know, so we are in the 
process of doing monitoring, but we are also in the process of 
hunting for the funding to enable us to do that better.
    Ms. Ros-Lehtinen. Thank you, and just one more. Thank you, 
Mr. Chairman, for the time. In Ms. Fields' testimony she says, 
``Everglades' damage was most severe in the Flamingo area, the 
lodge and cabins at Flamingo sustained significant damage and 
are not in habitable condition. Efforts are underway to reopen 
portions of Flamingo for day use visitor services and to allow 
front and back cut-through camping this season.'' And, what are 
these efforts, and what is in line to fully--what is the time 
line to fully open the lodge?
    Mr. Kimball. We are going on a step-by-step process at 
Flamingo. You've read accounts, we got hit by Katrina in 
August, and then on October 24th we got hit by Wilma, again, 
with severe winds, and in the case of the first, with Katrina 
we had a storm surge in the 3 to 4 foot range, and with Wilma 
we not only had the winds, we also had a storm surge up to 6, 
7, 8 feet in places, including a Florida Bay marl mud that 
covered pretty much all of Flamingo.
    We have, I understand from our facility manager that just 
as of yesterday we've got full power back to Flamingo. Our 
process there is to, as I said, go step by step. The first 
order of business is getting day use operations in place. We've 
had the White Water Bay open, where boats could launch and go 
up the Buttonwood Canal and go to the north.
    We have a problem with the Florida Bay Marina. We have an 
area that at low tide is as little as 6 inches of water, so we 
have scoped out a dredging project, which we have scoped out 
and are ready to go ahead with. And, we are also working with 
the concessionaire in terms of a day use operation to open up 
the marina store, and also to provide fuel.
    The pumps were inundated with Katrina. Luckily, we did not 
replace them quickly, because they also got inundated with 
Wilma, but they are going to have to be replaced, and it's a 
very intricate permitting process to get pumps that are right 
on a sea wall.
    So, we are trying to get our day use operations up as soon 
as possible, also open the camp ground.
    Now, the question on Flamingo is a more complicated one. 
I'm sure you've seen some of the articles in the paper. I want 
to make it real clear, we have not made any decisions on 
closing, and you probably saw statements from Fran Mainella, 
our director, we are still going through the process. At this 
point, we are going to be looking at a lot of different 
alternatives. We have leadership coming from Washington and 
Atlanta to visit the park in February to start to look at a 
process to develop a plan for Flamingo.
    Flamingo, at this point, is in our General Management Plan, 
which is going to be completed in 2009. We've made a decision 
to carefully look at pulling Flamingo out of the plan and doing 
a fast track, a site plan, to evaluate exactly what Flamingo 
should look like.
    I think we all know that Flamingo, it is our only overnight 
accommodations in Everglades National Park. I've heard others 
say, and I'll use it here, it's part of the fabric of 
Everglades National Park, so I think we'll proceed that way in 
terms of looking at exactly what Flamingo should look like.
    We are very concerned about reconstructing as is, because 
the development is at grade. At points it's just 3 feet above 
sea level. It does not comply with the Monroe County Code, and 
as one of our employees said in a newspaper interview, ``It's 
throwing good money after bad.'' We are thinking if we are 
going to develop a facility down there it should be hurricane 
resistant on the second floor type development, but as you 
know, by developing things on a--building things on a second 
floor are very expensive.
    So, we are looking and exploring the opportunities to 
possibly enter into a joint venture with a private interest, 
and the National Park Service, and we've also gotten many, many 
phone calls in the last month of private individuals in the 
south Dade area, and also across the country, that are very 
interested in contributing their own funds to rebuild Flamingo.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Chairman, just one last question. Thank you for your 
time.
    Out of Everglades National Park, Biscayne National Park, 
Big Cypress, and Dry Tortugas National Park, what areas in 
those parks are currently closed to the public; which areas 
that are now closed will be open to the public; and are there 
any areas that will not be opened to the public ever because of 
the fragility of the area?
    Mr. Kimball. Are you saying--asking because of the 
hurricane?
    Ms. Ros-Lehtinen. No, just in general, just so that, I have 
the philosophy, and I hope that the Park Service does too, that 
parks are to be enjoyed by the public, and not be that fussy 
librarian that doesn't want to get that book out of the shelf 
and get it out of order.
    Mr. Kimball. Right.
    Ms. Ros-Lehtinen. And, I hope that you believe that the 
parks should be enjoyed as well, and I'm wondering if that is 
your philosophy, and are there any areas that are currently 
closed that will be open? Are there some areas that because of 
the nature of the ecology they would suffer as a result of 
contact with man, and will remain closed to the public?
    Mr. Kimball. If I might, we are dealing with a number of 
these issues in our General Management Plan. There are some 
very, very limited areas within Everglades National Park that 
are closed, principally for protection of sensitive wildlife 
species, particularly, on the Keys. There are certain areas in 
Dry Tortugas National Park, because of the incredible bird 
assemblage in the park, that are, in fact, closed to visitor 
use, but they are basically sensitive wildlife areas.
    Everglades is a very large place, 1.5 million acres, almost 
1.4 million of that is wilderness area, but there are very few 
areas that are closed. There are some areas right now, because 
of the hurricanes, that we do not permit, day use is permitted, 
but overnight use is not permitted, because we have lost porta-
potties, for example.
    Ms. Ros-Lehtinen. That's not related to the hurricane, so 
tell me that again.
    Mr. Kimball. There are some keys, we'd be happy to get you 
a list. We have--there are some keys in Florida bay, for 
example, that are, in fact, closed because of sensitive 
wildlife areas, and we'd be happy to get those to you.
    In many cases, those have been closed for quite some time. 
There is a new area, called Carl Ross Key, that was, in fact, 
recently closed because of hurricanes and effects on the Rosset 
Spoon Belt.
    Ms. Ros-Lehtinen. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Souder. Thanks.
    I wanted to followup a little further on the Flamingo Lodge 
area. Has it been hit by previous hurricanes? I mean, to get 
hit twice here, is that extremely unusual, never before?
    Mr. Kimball. There is a history of hurricanes at Flamingo. 
I think the last major hurricane that hit there, and I'm pretty 
new down here, I guess----
    Mr. Souder. You can provide it for the record.
    Mr. Kimball [continuing]. We'd be happy to do that, in 1960 
Hurricane Donna hit it very hard and had a storm surge that I 
think was as much as 10 feet.
    Mr. Souder. Because it would be good to see the history of 
this in kind of a risk assessment question.
    Flamingo Lodge, having only been there a number of years 
ago, is not kind of one of the--it's part of the fabric of the 
system, and the only place you can stay, but it was not 
necessarily the model of visitation services.
    Mr. Kimball. Correct.
    Mr. Souder. Maybe a model for the mosquito repellant 
people.
    And, it had, arguably, one of the worst visitor centers 
I've ever visited in the entire National Park Service.
    Now, there were already plans underway, 4 or 5 years ago, 
to look at addressing the question of Flamingo Lodge and the 
visitor center. Was there a timetable that's now been adjusted, 
or where were we at in that process before these hurricanes 
hit?
    Mr. Kimball. Mr. Chairman, there was a site plan that was 
developed in the late 1990's. The sense was that we, I guess 3 
years ago, started a General Management Plan process, and 
Flamingo would be considered in that General Management Plan, 
and a lot of the issues that you just brought up were going to 
be considered, in a general way, in the General Management 
Plan, but then would be followed up with a development concept 
plan and a site plan.
    Mr. Souder. Did the hurricanes hit Big Cypress or Biscayne? 
Did it do much damage in your parks as well?
    Ms. Gustin. Yeah. One advantage I have is, I'm on the west 
side of Florida, so I don't get hit quite as often as Biscayne 
and Everglades do, but Wilma did do a number to Big Cypress.
    And, the majority of our damage was done in the back 
country. It was very widespread, and we had significant damage 
to vegetation, with downed trees over hundreds of miles of 
trails, that took about 6 to 8 weeks to actually clear and open 
to the public.
    And, we had roof damage to buildings, and utility systems 
damaged, as well as communication problems, for a good 3 to 4 
weeks after she hit us.
    And so, it was very widespread, very spread out, so we 
didn't have a focal point like Flamingo, fortunately, but we 
had a lot of very widespread damage throughout the whole 
preserve.
    Mr. Lewis. And, Biscayne National Park, again, much more 
fortunate than Everglades National Park, we did have extensive 
damage to vegetation. We had parts of roofs that were lost. We 
had screened rooms that were lost. We had damage to boardwalks. 
We had damage to the boating docks where we tie up our 
government boats.
    All in all, we were somewhere in the neighborhood of $1 
million worth of damages, which is a whole lot better than some 
parks have been.
    Mr. Souder. And, could you provide for the record if 
there's any history in the past of how frequently this occurred 
since 1960?
    Mr. Lewis. Hurricane Andrew did a huge number, of course, 
on the homestead, South Dade County, back in 1992, and did a 
huge number on Biscayne National Park at the same time.
    This year has been the first year of any real significance 
since Andrew.
    Mr. Souder. Let me ask Mr. Kimball, and it would also 
relate somewhat to Big Cypress, in Louisiana there's been a 
gradual change with the channeling and increase in brackish 
water, and less protection for the city of New Orleans, and 
this was an issue multiple years prior to Katrina. Is that 
happening in the Everglades, do you see the sea water moving 
into the system, and what is that doing in the hydrology mix in 
the park, and how this might even relate directly to the 
Flamingo area?
    Mr. Kimball. We've been monitoring increases in sea level 
in Florida Bay, and we've gone to the Rosenstiel School of 
Marine Sciences and other places, and what the scientists tell 
us is that we could be looking at as much as a foot of sea 
level rise in Florida Bay over the next 100 years. Now, I 
realize there are some projections that are above that, some 
projections are below that, we are using that as a planning 
number, and it really has an effect on kind of what kind of 
infrastructure we are looking at, particularly, in the Flamingo 
area.
    Mr. Souder. Can you see that you are losing feet per year 
now with the small rises, because in Louisiana they were 
dredging and diking, and trying to preserve the bayous and the 
fish and wildlife areas already, prior to Katrina.
    Mr. Lewis. We are seeing some changes down there. I can't 
say that it's directly related to this sea level rise that 
we've been hearing about.
    Mr. Souder. May I ask you about your boats. One thing 
that's really apparent when you come across, it's one of the 
constant questions we have, visitation, and then in-holdings, 
and Native American groups, are most operations licensed? Can 
you explain a little bit to me how Florida differs with--
clearly, many of them were Native American, both at Big 
Cypress, I think more probably than Everglades, but between the 
two of you could you deal with that question?
    Ms. Gustin. I'll go.
    Mr. Souder. Sure.
    Ms. Gustin. We do have commercial air boat operations 
outside of Big Cypress, predominantly, by the public. We are 
currently going through what we call a Commercial Services Plan 
to evaluate the need for commercial services at Big Cypress, 
which could potentially include air boats.
    Right now, we do not have any licensed or permitted 
commercial air boat operations in Big Cypress. Now, we do have 
private air boat operations, but not commercial.
    We plan on having those commercial services----
    Mr. Souder. What do you mean by the difference between 
private and commercial?
    Ms. Gustin. If you had an air boat and wanted to come to 
Big Cypress, you could go do it.
    Mr. Souder. It would be like horseback riding or something.
    Ms. Gustin. Right.
    If you had a business and wanted to conduct----
    Mr. Souder. If you can horseback ride in Big Cypress.
    Ms. Gustin. You can.
    Mr. Souder. OK.
    Ms. Gustin. If you had a commercial air boat service that 
you wanted to charge people for, currently we do not have that 
type of service in Big Cypress.
    Mr. Souder. So, the ones that you see advertised along the 
way----
    Ms. Gustin. Those are all outside the boundary of Big 
Cypress.
    Mr. Souder [continuing]. At the east/west boundaries?
    Ms. Gustin. Yes, the west boundary we have a couple of big 
operators, and on the east side we have about four, well, we 
don't, on the east side there are about four or five big 
operators.
    Mr. Souder. And, they can't go in to the National Preserve?
    Ms. Gustin. On a commercial basis, no, but private 
individuals can operate air boats in certain sections of Big 
Cypress.
    Mr. Kimball. In Everglades National Park, air boating is 
permitted in one area, the area that Ms. Fields talked about, 
the East Everglades, the 109,000 that was brought into the park 
in 1989. There are two forms of--use can take two forms, one 
are private air boaters, and the law says that private air 
boaters who are, in fact, air boating in the East Everglades on 
January 1, 1989 can continue for their lifetime. OK, it's a 
life estate.
    In terms of commercial air boat tour operations, the 1989 
act says that if you had a commercial air boat tour operation 
on that date, in January 1989, you can continue your operation, 
and the Secretary of the Interior is authorized to enter into 
concession contracts with those operators.
    We are in the process, right now they are operating, our 
best information is there's about 300,000 visitors that are 
coming into Everglades National Park. They are operating, they 
do own private land there, they are right along Tamiami Trail, 
you've probably seen them, they are operating within the park. 
They do not have any kind of incidental business use permit or 
a commercial use authorization.
    At this point, we are in the process of going through an 
interim concession contract process. In fact, we are doing an 
environmental assessment to get them under some form of 
concession contract.
    Now, that being said, we are also looking within our 
General Management Plan about the appropriateness of commercial 
air boat tour operations in the East Everglades area of 
Everglades National Park within the GMP, and we'll be making a 
decision about that 2008-2009 period.
    Mr. Souder. Do any of your parks collect demonstration 
fees?
    Mr. Kimball. Yes.
    Ms. Gustin. Yes.
    Mr. Souder. And, how do you do that, at the Flamingo area 
in Everglades?
    Mr. Kimball. We collect fees at our entrance station, just 
west of Homestead, and also at the Shark Valley, we have a tram 
operation that collects fees there.
    Mr. Lewis. At Biscayne National Park, the only fees we 
collect are our camping fees at our two camp grounds.
    Ms. Gustin. And, we have two camp grounds that we currently 
collect fees for at Big Cypress.
    Mr. Souder. And, at Everglades, what percentage of the 
people would you say coming into the park pay a fee?
    Mr. Kimball. That is hard for us to estimate at this point. 
Our visitation is 1.2 million visitors. Actually, in the mid 
1970's it was 1.7. It's gone down significantly. We are looking 
at why that's happened.
    We are in the process of figuring out exactly different 
ways of counting visitors, for example, we get a considerable 
amount of use on Florida Bay, we do not count operators or 
visitors to Florida Bay.
    I guess, Mr. Chairman, I can look into it and talk to some 
of our staff, in terms of exactly what percentage that 1.2 
million represents in terms of total visitation to Everglades 
National Park.
    Mr. Souder. 1.2 million are the number of people who paid 
the fee?
    Mr. Kimball. That's correct, the ones that come through our 
entrance stations at Shark Valley and at our main entrance west 
of Homestead.
    Mr. Souder. Do you have an idea of how many of those are 
regional within 100 miles?
    Mr. Kimball. I don't know if we've done a survey of 
visitors. I'd certainly be happy to look into that.
    Mr. Souder. If you have any data on that, that would be 
helpful, in either of your parks, too, because this is an 
interesting question as we look at where the points on these 
demonstration fees are, what usage mix, as we try to find a way 
for low-income families to have it covered.
    Mr. Kimball. We do have many, many foreign visitors to 
Everglades National Park.
    Mr. Souder. One thing I meant to ask on the hurricanes, you 
were referring to the two that came up to Everglades, I believe 
you said there have been eight that have hit Dry Tortugas?
    Mr. Kimball. Uh-huh, some peripherally, some glancing 
blows, others direct hits, like Charlie in 1984--2004, excuse 
me.
    Mr. Souder. Is that a typical pattern that as many as three 
to four times as many will hit that park system?
    Mr. Kimball. No, I think everything we see from the 
National Hurricane Center is that we are going into a pattern 
of increased frequency and possibly intensity of hurricanes, 
and I think we are all watching Max Mayfield at the Hurricane 
Center to see what he has to say about that, but he, basically 
says we are moving into kind of a natural, the natural cycle of 
increased, a pattern of increased frequency of hurricanes.
    Mr. Souder. Ms. Fields, between you and Mr. Kimball, can 
you--I know he's a hydrology expert, but could you talk to me a 
little bit about water? You mentioned in your testimony the 
amount of dollars that Congress has put in, the long-term plan 
for billions. Where would you say we are on that plan? Does the 
Park Service have a fixed amount that's dedicated to this in 
your annual planning? Are we ahead or behind that schedule?
    Obviously, I know there's been huge debates about whether 
the original plan was the best plan, how it should be changed, 
and those things have huge impacts on this, and there's a hot 
political development issue in Florida as well. But, could you 
kind of tell me from the Park Service perspective. Where do you 
think we are on the restoration question and funding cycle?
    Ms. Fields. Is this related to CERP?
    Mr. Souder. Yes, basically.
    Ms. Fields. Yeah, I will defer to Mr. Kimball on that.
    Mr. Kimball. You just mentioned--I'm so glad you brought up 
the issue of south Florida ecosystem restoration, because it's 
so important to the health and vibrancy of Everglades National 
Park.
    The most important project for Everglades National Park is 
the Modified Water Deliveries Project. It is not a CERP 
project. It was authorized in 1989 by the same act that created 
the east Everglades area of the park.
    We have been working with the Corps of Engineers for some 
16 years to get this project in place, and I think over the 
last couple years we've made some great progress, in terms of 
the 8\1/2\ square mile area, an area that was built to the west 
of the protective levy, in terms of providing flood protection 
to that area.
    We've also worked hard with our partners, including the 
State of Florida and the Corps of Engineers, in terms of 
identifying exactly what should happen on Tamiami Trail. In 
fact, there's a general reevaluation report and a final EIS 
that's being considered by the Corps of Engineers right now in 
Washington, in fact, this week. That is, as I said, the most 
critical project to Everglades, the restoration of flows to 
Everglades National Park.
    Going to your question in terms of funding, the project now 
has had quite a history. It is now a $400 million project, and 
with funding in 2006, with an additional $60 million, we are 
now--we funded, with the help of Congress, $250 million events, 
so we still have $150 million to go, but I would say for the 
record we have made incredible progress. We are zeroing in on a 
project that we hope will be completed in 2009.
    In terms of the other--there are a number of other 
foundational projects for CERP, the C-111 project that's 
advancing with the detention areas along the eastern boundary 
of the park, to keep, as we bring water in from the north to 
provide a hydrologic barrier to keep this water in the park. 
There are also the 68 CERP projects, Comprehensive Everglades 
Restoration Plan projects, and I think you probably know that 
the State of Florida has advanced a number of projects that 
they call Accelerate. I'm very supportive of those projects. 
It's with State money, and they are moving forward with those 
projects.
    Everglades National Park was fortunate to get over, I think 
the total is close to $9 million, to fund 40 positions in our 
science program, to carefully look at those projects, to look 
at assurances and performance measures.
    We are also carefully looking at those Accelerate projects, 
to make sure that they deliver the environmental benefits that 
we expect in the park. So, I think we are making some great 
headway. We have a long ways to go. You know this is a 35 year 
effort, but I think we are making some wonderful progress.
    Mr. Souder. Is Big Cypress at all involved in this?
    Ms. Gustin. Yeah, we have a much smaller number of projects 
going, between three and six different projects, that are 
related to resource monitoring, specific to water quality and 
vegetation, but we are involved in the process.
    Mr. Lewis. As is, Biscayne National Park, a lot of people 
don't realize just how essential the flow, the restoration of 
fresh water flow into Biscayne Bay is. Biscayne Bay is very 
dependent on an appropriate mix of fresh water and salt water, 
and over the last 20 or 30 years there has been a greatly 
reduced flow of fresh water into the bay. And, our hopes are 
that the restoration project, when finished, will help restore 
the Biscayne Bay to much more like it was 50 and 60 years ago.
    Mr. Souder. Thank you.
    Do you have any additional questions?
    Ms. Ros-Lehtinen. Yes, thank you.
    I wanted to get your comments about the publication put out 
by the National Parks Conservation Association. I've been proud 
to work with them for a number of years, and they point out, 
``Additional rangers are needed in marine parks, such as Dry 
Tortugas and Biscayne in Florida, to prevent illegal fishing 
and coral poaching, and enforce boating safety and navigation 
laws. In 2002, National Park Service Director Fran Mainella 
told Congress that poaching, over fishing, improper fishing, 
boating and diving practices were among the activities that 
contribute to degradation of some of the fragile marine 
ecosystems.''
    How have you been working with the organizations like the 
National Parks Conservation Association to make sure that the 
illegal fishing and coral poaching is a little more under 
control?
    Mr. Lewis. I'll take a stab at this one.
    We've been working pretty closely with National Parks and 
Conservation--National Parks and Conservation----
    Ms. Ros-Lehtinen. Association.
    Mr. Lewis [continuing]. Association, thank you, in 
analyzing the threat that the park faces and in posing 
potential resolutions of those threats.
    We've also been working pretty diligently with the State 
Fish and Wildlife Conservation Commission in developing a 
fisheries management plan that will help us both deal with 
fishing pressures and with boating pressures.
    We have worked with groups like the South Florida Trust, 
which is an associate of the National Parks Foundation, in 
publishing educational materials in different languages, in 
Spanish, and Creole, as well as in English, on safe boating.
    We are in the process, as we speak, of working on a mooring 
buoy program, to expand, hopefully, we will expand the program 
in the park.
    So, we are working with a number of different agencies and 
private organizations, in a variety of different ways to 
protect the resources.
    Ms. Ros-Lehtinen. Yes, sir.
    Mr. Kimball. We have been working with NPCA in really two 
ways. One is, you may have seen it, they recently did a State 
of Florida Bay Report, that I thought was an excellent report, 
that laid out the challenges we face in Florida Bay, just not 
only from a resource standpoint, but from an impact standpoint 
in terms of making sure that boaters understand how complicated 
and sensitive the resource is out there. So, we've really been 
working with them on the State of Florida Bay Report, that I 
think provides a great platform as we move forward.
    A more tangible effort we've engaged in with NPCA, NPCA was 
able to hook up with an anonymous donor, and they made a 
donation to the park, a handsome donation I might add, where we 
were able to hire a number of law enforcement rangers, also get 
some better boats, and also some better educational material, 
and also an education coordinator that will directly help us in 
our management of Florida Bay.
    Ms. Ros-Lehtinen. Thank you.
    And, in reason No. 7 that the Association gives to invest 
in our national parks, they talk about invasive species that 
are overrunning our parks, and they cite the Everglades 
National Park, in that park non-native boa constrictors and 
Burmese pythons have invaded the waterways, invasive melaluca, 
Australian pine, Brazilian pepper plants are overtaking native 
mangroves in Cypress, while fishermen lament the decline of 
native large mouth bass which are losing nesting habits to 
exotic fish from Africa. How much headway have we made with 
these invasive species that are overrunning the Park Service?
    Mr. Kimball. If you think about Everglades ecosystem 
restoration, I look at it is kind of three pillars. One pillar 
is getting the water, with quantity, quality, time and 
distribution. Another one is making sure the habitat is right, 
to make sure that we take care of the exotics, whether they be 
vegetation or aquatic species. And, the third pillar is 
compatibility with the built environment, in other words, we 
know we need to restore Everglades, but we need to make sure 
that the Everglades restoration provides for necessary flood 
protection and water supply for our neighbors, and that's a 
very important part of it.
    If I can go back to that second pillar, we have quite a 
robust program within Everglades National Park, and as Ms. 
Fields talked about in her introductory remarks, working with 
the State of Florida, and with some exotic plant management 
team that works within the region, to start to get a handle on 
this problem. We worked very hard, in terms of Brazilian 
pepper, and melaluca, and Australian pine, and we are making 
good headway.
    We also have a project in the park called Hole in the 
Donut, that's 6,200 acres of Brazilian pepper, and we've been 
working with Miami Dade County and the National Park Foundation 
to figure out ways, we've actually removed Brazilian pepper off 
4,200 acres of that.
    So, we are chipping away at the problem.
    In terms of some of the exotic animals, I'm sure many of 
you have seen the pictures that seem to be everywhere about the 
pythons that we are dealing with in Everglades National Park. 
We've worked on, we're working on a number of programs there, 
one of which is kind of a don't let it loose campaign, to let 
people know when they buy a python that they ought to think 
about ultimately if they can keep it in their aquarium forever. 
I don't know if there's a python rescue around, but we are 
working on that.
    We are also trying to learn more about where they go in the 
park. We don't know very much about pythons. We know they like 
to hang out on canals, on levees, but we are trying to right 
now find out where they go so we can do a trapping program, and 
ultimately try to eradicate pythons from Everglades National 
Park.
    Ms. Ros-Lehtinen. Thank you.
    Ms. Gustin. May I add something regarding exotics?
    Ms. Ros-Lehtinen. Yes, thank you.
    Ms. Gustin. I think we deal with the same species that 
Everglades does, as far as trying to eradicate Brazilian pepper 
and melaluca, etc. Related to the hurricane, though, because 
this hurricane was so strong, it destroyed or heavily impacted 
a lot of the hardwood hammock areas, and really opened up a lot 
of vegetation areas that were previously closed or had a higher 
level of a canopy. And, the thought is that, this year and next 
year it will take a while for those canopy areas, or those 
vegetative areas, to recover, and they will be a prime ground 
for exotics to start landing and spreading their seeds and 
growing.
    So, related to the hurricane, it's going to be a year or 
two before we really do understand the impact of the hurricane 
on the spread of exotics. So, that's a concern from a natural 
resource perspective.
    Ms. Ros-Lehtinen. Well, Mark and I consider liberals to be 
invasive species, and we haven't figured out a way to get rid 
of them either.
    Thank you, Mr. Chairman.
    Mr. Souder. I was going to say, enough news stories about 
pythons may explain your drop in visitation, if you get enough 
of that.
    Mr. Lewis. We'll look into a regression equation for that.
    Mr. Souder. Are there, I believe it was out in Utah, 
cottonwoods, are any of these particular invasive species water 
suckers, in other words, take a disproportionate of water 
compared to others that are also altering the water balance, 
and do you target that first, given the nature of your parks?
    Mr. Lewis. That's why the Melaluca plant was planted here, 
was to drain the Everglades, to suck up the water out of the 
Everglades, and one of the reasons it's such a huge problem 
here is because it does such up a tremendous amount of water 
that would otherwise be available for other natural resources.
    Mr. Souder. Does that become a target when you are 
prioritizing invasive species because of that?
    Ms. Gustin. Yes.
    Mr. Souder. I wanted to ask one followup question on the 
large donation you said you had to the park. Did that come 
through an Everglades foundation that you have?
    Mr. Kimball. Yes, it actually was a donation through the 
South Florida National Parks Trust, which is an affiliate group 
of the National Park Foundation. It's a group that was 
established about 3 years ago, to assist Everglades National 
Park with both fundraising and friend raising here in south 
Florida.
    Mr. Souder. So, it does, not only functions like types of 
things, like nature conservancy, where they may buy a piece of 
land to preserve transfer over, it also does operating?
    Mr. Kimball. It does not, it does not function as a land 
trust. They do not hold land. They raise money, assist the 
park, as I said, in friend raising, but then also go out and do 
fundraising activities to assist the park.
    Mr. Souder. The best example that we've had thus far is 
Friends of Acadia, the Rockefeller's built, they bought the 
trail system, and also gave them a donation to operate that. 
Have you had--what was unusual, and what I heard you say was, 
is it actually helped pay for rangers.
    Mr. Kimball. That's correct.
    Mr. Souder. Which is one of the concerns we've had, is that 
if the Park Service doesn't adequately fund many donors don't 
want to get into covering operating things that they think the 
taxpayers ought to be operating. You've kind of hinted that was 
a cross zone thing. I'm interested in a little bit more 
information on that.
    Mr. Kimball. This particular donor was specifically 
concerned about putting rangers on the water, law enforcement 
rangers, to make contacts with fishermen and others that are 
using Florida Bay to enforce a wide range of regulations at the 
park.
    And, as I understand, this is the first time that a donor 
specifically wanted to support a law enforcement function in a 
national park.
    Mr. Souder. And, was there a trust set up to pay for that 
long term? Was that like a 2-year funding project? How does 
that work?
    Mr. Kimball. We received the first year funding, we are 
hoping on the second, and we're told that if we perform that 
there would hopefully be a third.
    Mr. Souder. Thank you.
    Each one of these hearing books, each one of these hearings 
will be an actual little book on that region. Is there anything 
you want to add here at the close, and we may add a few 
followup things for that, as well. I want to have a little more 
in depth on the coral question, because that's unique to your 
area, also how the water systems and the coral impact the whole 
Keys structure, southeast Florida and southern Florida, because 
that's something we won't face anywhere else, just like out in 
Hawaii with the volcanos the day before we held our hearing, 
the park fell into the ocean. It was, what, like 45 acres, I 
think, fell into the ocean with the visitor station and 
everything else, and we don't have that problem in a lot of 
parks either, and trying to figure out the regional challenges. 
One here is that your whole coral structure of the Keys and the 
water interrelationship is very unique at this scale, and it 
would be helpful to get some of that, anything you would think 
that if somebody picks this book up and says, here's what is 
unique about this section of the country in the Park Service, 
and we have a challenge, help us fill out a little bit the 
documents we put in and other info.
    Anything else you'd like to add?
    Mr. Lewis. What I would like to do, if it would meet your 
purposes, would be to provide a short summary of the knowledge 
of the resources and the threats facing the resources, and we 
would provide that to the committee.
    Mr. Souder. That would be very helpful.
    Mr. Lewis. OK.
    Mr. Souder. Thank you very much for your participation. I 
appreciate you coming out today and fielding the questions, and 
we'll be following up through Ms. Fields and the individual 
parks.
    Thank you very much.
    Ms. Gustin. Thank you.
    Mr. Kimball. Thank you.
    Mr. Kimball. Thank you.
    Mr. Souder. The second panel, if you could come forward, is 
Nathaniel Reed, Member of the National Council for NPCA, the 
National Parks Conservation Association, and Dexter Lehtinen, 
senior member of the South Florida Ecosystem Restoration Task 
Force.
    Mr. Reed. How would you like to handle this, Mr. Chairman?
    Mr. Souder. I need to swear you both in first. If you'd 
each raise your right hand.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of our witnesses 
responded in the affirmative.
    Thank you very much for being here today. NPCA has been 
critical in helping us talk through this hearing and have been 
very helpful in providing data. Your full statement will be 
inserted in the record, feel free to go through as much of this 
as you want.

   STATEMENTS OF NATHANIEL REED, MEMBER OF NATIONAL COUNCIL, 
 NATIONAL PARKS CONSERVATION ASSOCIATION; AND DEXTER LEHTINEN, 
 SENIOR MEMBER, SOUTH FLORIDA ECOSYSTEM RESTORATION TASK FORCE

                  STATEMENT OF NATHANIEL REED

    Mr. Reed. Mr. Chairman, I am really pleased that you are 
here, and I'm simply delighted that Congresswoman Ros-Lehtinen 
is here as well.
    I want to take a moment aside, we are in a building that 
has a great attachment to me. My uncle, my mother's brother, 
was one of the founders of Pan American World Airlines, and 
this building, this room, was headquarters of Pan Am in the 
1920's and became a vital part of Pan American World Airlines 
in 1933, with the advent of the aircraft that is somewhere on 
the wall, right up there, the first Martin Aircraft. And from 
just outside these doors the Amphibius flew to Cuba, the 
Carribean, and later to Central and South America, right from 
here. This was the headquarters, and this is where the 
passengers came and embarked on the airplane. That's such a 
short time ago, relatively, and think what it is we now fly all 
over the world.
    Mr. Souder. Thanks, it is a great, it's a wonderful 
building.
    Mr. Reed. It's just a marvelous feeling.
    I want to say how pleased I am that the three 
superintendents were here, and I want you to know that they are 
three of our most distinguished members of the National Park 
Service team. We are really fortunate that Fran has sent us 
three really exceptional human beings and managers.
    I want to introduce somebody, Lloyd Miller, sitting beside 
me. Lloyd Miller's career has been extraordinary, in the sense 
that he opposed, he formed a group opposed to building a huge 
petro chemical concern on the banks of Biscayne Bay, led with 
Dante Fascell the effort to make Biscayne Bay first a National 
Preserve, and then in the Nixon years we made it into, extended 
its boundaries and it became a National Park. He opposed, when 
I was Secretary of the Department of Environmental Regulation, 
Florida Power & Light's plans to build a huge nuclear power 
plant, which was built, but they were going to put their 
effluent, their heated effluent, in the Bay and boil the bay. 
And, I challenged that, refused to give that permit.
    I'm going to go back to my text now, Mr. Chairman.
    I had the honor and privilege of serving six Florida 
Governors in a variety of positions, including Environmental 
Advisor and Founder of what is now known as the Department of 
Environmental Protection. I had the rare opportunity to serve 
as the Assistant Secretary of the Department of Interior for 
Fish, Wildlife and National Parks, from 1971 to 1977. During 
this period, the National Park Service and the Park System was 
one of my main fascinations and challenges.
    I have been a member of the Board of Trustees of the 
National Park and Conservation Association, and I am currently 
a member of the NPCA's National Council.
    As you know, since 1919, the non-partisan National Parks 
and Conservation Association has been the leading voice of the 
American people in protecting and enhancing our National Park 
System for present and future generations. Today, we have 
300,000 members nationwide, who visit and care deeply about the 
future of our national parks.
    My fascinations with the Park System, the system is unique 
in the world. I have visited the great East and South African 
Park Systems that are famous for the magic of great animal 
herds and the diversity of habitats, but I have witnessed 
extraordinary wildlife and breathtaking scenery in America's 
national parks, but wildlife and scenic majesty are but a small 
part of our National Park System. We have preserved as a Nation 
the best of our history, the system is unique, there is no 
other like it.
    In a recent poll of American adults by Harris Interactive, 
the National Park Service was rated the most popular of all 
government agencies and services. It is an example of the mis-
aligned priorities in Washington that we are consistently 
struggling to protect this goldmine from a lack of proper 
funding and adequate staffing levels, political gamesmanship, 
and, frankly, absent congressional oversight, ultimately 
driving out talented and experienced staff.
    Your oversight is long overdue. The problems of the 
national parks and the National Park Service have been growing 
unchecked for too long.
    This fall I visited Liberty Island and Ellis Island, and it 
reminded me of when then Director George Hartsog and I had 
visited Ellis Island together in 1973. We were so impressed by 
the history of the center of American immigration, yet 
dumbfounded by the deterioration that had occurred since the 
site had been abandoned. I begged and received permission from 
President Nixon, and the two congressional appropriations 
committees, to begin to stabilize the main building.
    I don't know whether you knew Congressman Sid Yates. He was 
chairman of Appropriations. I took him there in 1975. His 
father had come through the Great Hall as an immigrant. I'll 
never forget Sid weeping, weeping, and I thought of him this 
fall when I went through. I've forgotten what the percentage is 
of Americans, the legacy of Americans that came through the 
Great Hall is, but it's a staggering figure, and it is the most 
glorious site now.
    The combination of taxpayers' funds and private donations 
has recreated a national site of great historical importance. 
This is another aside, I joined a group of Afro American 
children from a high school. I joined a group of 16 young 
Hasitic students from a synagogue. I joined two groups from, I 
would say, very yuppy high schools in upper State Connecticut 
that had been driven down by buses. There was no difference in 
those groups, in their total fascination of what the importance 
of Ellis Island was to America. It was an eerie and marvelous 
feeling, Mr. Chairman, of identity.
    Despite the valiant efforts of public/private partnership 
whose dollars support parks, inadequate funding continues to 
plague all parts of the system and erodes the foundation of 
some of our hard-earned trust.
    You asked an awfully good question about Friends of the 
Acadia. I'm a member, my summer home is across the bay from 
Acadia in Winter Harbor, and I've been a member of Friends for 
many, many years. I helped to establish the Yosemite 
Foundation, was on the board and one of the founding members of 
the Yellowstone Foundation, and on this board down here as well 
as a founding member, it's called the South Florida National 
Park Trust. Those trusts and foundations raised money for 
desperately needed projects within their parks that Congress 
does not appropriate. It doesn't buy land, it doesn't get 
involved in litigation. It does things that should be done, but 
the money from Congress isn't there.
    Here in Florida, you can look at Biscayne Bay, or the 
Everglades, for evidence of underfunding. I happen to fish in 
Biscayne Bay six times a year, so I know it like the back of my 
hand. I was Assistant Secretary when we expanded its boundaries 
to the north. It is an amazing underwater park that's part of 
the third largest coral reef system in the world. But, 
unfortunately, Biscayne Bay's budget has increased by just 2 
percent since 2001. According to NPCA's recently released State 
of the Parks Report on Biscayne, this funding shortfall has 
significant consequences for the park. Biscayne's coral reef is 
in trouble, fish populations are declining, and fresh water 
flows, which the superintendent bravely mentioned, critical to 
the health of the regional ecosystem, are changing.
    The reason I say bravely, it's sort of the untold story 
that we are close to losing that fresh water supply that's been 
promised by the Corps of Engineers to refresh Biscayne Bay. 
It's a crisis that's in the works right now. I sent a letter to 
the Assistant Secretary of the Army this morning on that 
subject, and I'm afraid we are going to have a terrible 
confrontation if the plans of the Corps of Engineers are 
ignored by the State of Florida and the water resources that 
should be going to Biscayne are not utilized.
    The park is primarily a marine park, which means that it's 
under-staffed ranger force is hard pressed to deal effectively 
with illegal immigration and smuggling issues. According to a 
2003 rating by the Fraternal Order of Police, Biscayne is the 
sixth most dangerous park for law enforcement officers. That's 
not a great place to be.
    At Everglades National Park, the operating budget increases 
over the last 5 years have not kept pace with inflation or 
other escalating costs for the park. As a result, the park 
faces a lack of research scientists and law enforcement 
personnel.
    In 2005, Everglades National Park had a total of only 12 
full-time law enforcement rangers to patrol 444,790 acres of 
Florida Bay. I just was on Florida Bay Saturday and Sunday, and 
it was freezing, but I've got to tell you, it's still one of 
the most magical places on the face of this Earth. The islands 
the superintendent mentioned to Congresswoman Ros-Lehtinen that 
shouldn't be touched are principally bird rookeries. There were 
thousands and thousands of white birds, grey egrets, American 
egrets, grey herons, white pelicans, little whites, little 
blues, snowies, all huddled like I should have been in the 50 
degree temperature. Hopefully, they are going to breed.
    According to the most recent law enforcement needs 
assessment completed in 2003 by Everglades National Park, 
there's a 30 percent shortfall in the number of rangers needed 
to adequately staff the park. Dan knows this. I fish there on 
the west side from the 10,000 islands down frequently. It's the 
most popular fall snook fishing area in Florida. It's possible 
to catch 50 small snook a day with a fly rod, may almost be too 
good. You are ruined for the rest of the year.
    And then I come back in January, my guide got blown out in 
the hurricane, so I haven't come back this year, but we fish 
after very cold weather, giant snook move in from the Gulf and 
lie up in water that's shallower than that to get solar heat, 
and they'll take a fly at day three, four or five, as their 
metabolism begins to establish, and I'm talking about big fish, 
I'm talking about fish from 20 to 35 pounds. And, I don't come 
back from Everglades City and Chokoloskee, I don't drive back 
to my home 3 hours without thanking God that I was involved in 
the acquisition of the Big Cypress, and without being so proud 
of America and Americans for protecting something as 
magnificent as the Big Cypress is, and how it connects with 
Everglades. I've walked all over it, been in the swamps, pushed 
alligators and cottonmouth moccasins aside, I've got to tell 
you, it just brings chills to me that I was involved with an 
administration that cared and with a Congress that cared to 
protect these areas.
    The funding issues at Everglades also threaten the 
protection and enhancement of the Everglades, one of the most 
significant and magnificent ecosystems in the world. The 
problems include too much water during very wet periods, and 
too few places to store it when there is a drought. We are in a 
wet period right now, we don't know what to do with it, we have 
just been sending it out to sea, out to St. Lucy on the east, 
out to Caloosahatche on the west. We've ruined two estuaries 
and drowned the Latorio Marsh in Okeechobee. It's a scandal of 
major proportions.
    We can go into the blame game of who did it. Obviously, the 
hurricanes, four hurricanes have added billions of gallons of 
water into Lake Okeechobee, but to give you an example of 
misuse, we have sent over 800 billion gallons of water, 
polluted water, to the estuaries in this past year, this past 
year, 800 billion gallons of water which we could use when it 
is dry.
    Our State's rapidly growing population, and lack of Federal 
funding for land acquisition, threaten the ability of the NPS 
to assure that our south Florida parks are buffered and 
restored.
    Now, make no bones about it. The continuing problems of 
gross agricultural pollution threaten Lake Okeechobee, the 
heart of the Everglades system, and the park's headwaters.
    I'm involved with the Everglades restoration issue 7 days a 
week. It's my fascination. While the problems are numerous, the 
Comprehensive Everglades Restoration Plan passed by Congress by 
almost a unanimous vote proposes to alleviate them through a 
unique Federal/State partnership. While the vote passed the 
Congress by overwhelming margins, the Corps planners frankly 
are tied up in bureaucratic knots, and have yet to complete a 
single CERP-related project.
    Part of the problem, Mr. Chairman, are new rules and 
regulations, and during the reform movement that's going on in 
the Congress to try to reform the Corps of Engineers, a 
frightening prospect. Part of it is acquiring the right people 
to man the jobs in Jacksonville at the district office. Part of 
the problem is eight hurricanes in the past 3\1/2\ years.
    The combination of all those has delayed every project that 
Congress authorized, and we are now 5 years into it, and we 
don't have a single project to go forward to the Congress for 
appropriations.
    The Governor, tired of waiting for the Corps to overcome 
real and perceived obstacles, created a program known as Excel 
8, financed by $1.5 billion of Florida taxpayers' funds to 
jumpstart the process. Frankly, some of the major Excel 8 
projects have major environmental problems that must be settled 
regarding, not only the objectives of the proposed projects, 
but who the beneficiaries are supposed to be.
    It is my opinion that the primary purpose of the Federal 
Government's role in CERP is the restoration of federally 
managed lands, that is, Biscayne National Park, Everglades 
National Park, and the Big Cypress. Unfortunately, as the 
Everglades awaits further congressional action and 
administration support, land values continue to skyrocket, 
development pressures increase, and major opportunities to 
acquire lands that are critical to the restoration of south 
Florida's national parks are lost.
    Frankly, I have been frustrated by the lack of 
congressional oversight and the lack of consistent funding to 
deal with all the problems facing Florida's national parks, so 
I ask repetitive, where is the congressional accountability for 
funding and restoration of our south Florida national parks?
    Only after 15 years, we finally see some real Federal 
funding for one of the Everglades restoration projects, thank 
God for it, $60 million for the restoration of flows through 
the Everglades into Florida Bay. If it wasn't for the dedicated 
efforts of Congressman Clay Shaw, and by the way I spoke to his 
wife Emily this morning, he is resting comfortably, he is home, 
he feels strong, he's going to make a perfect recovery from his 
lung operation.
    David Hobson and Senators Bill Nelson and Mel Martinez, and 
a special friend, John Warner, Senator Warner, who helped 
enormously this year, in getting the mix-up between the two 
Appropriations Committees straightened out so that the money 
did flow to the ModWaters Program. I don't know whether you are 
aware of that, but the two Appropriations Committees had 
conflicts in their bills, and neither one wanted to give way. 
Senator Warner was willing--was able to get the Senate staff to 
change their language and we moved forward.
    More congressional oversight and funding is still needed to 
ensure that we get the water right, in order to protect our 
south Florida parks for future generations. The verdict is 
still out.
    I leave you, Mr. Chairman, with a sense of genuine 
gratitude that you have taken time to investigate the 
shortcomings and financing of the National Park System, the 
service, and the impact on recruiting the once broad-ranged, 
highly trained and motivated Park staff, now becoming 
frustrated by a lack of adequate funding, political 
gamesmanship, and a sense that the problems are insoluble.
    I'm on the last legs of my life's journey, and I'm 
determined that my attention will continue to be focused on the 
incredible problems that your subcommittee is studying. Your 
recommendations can make the difference in the enhancement, if 
not the survival, of one of America's greatest gifts, not only 
to our citizens, but to the world.
    I wish you courage. I wish you foresight, but especially 
courage, as you conclude your hearings and render your report 
to the Congress and the administration.
    Thank you, sir, for the opportunity to appear before you.
    [The prepared statement of Mr. Reed follows:]

    [GRAPHIC] [TIFF OMITTED] T8170.001
    
    [GRAPHIC] [TIFF OMITTED] T8170.002
    
    [GRAPHIC] [TIFF OMITTED] T8170.003
    
    [GRAPHIC] [TIFF OMITTED] T8170.004
    
    [GRAPHIC] [TIFF OMITTED] T8170.005
    
    [GRAPHIC] [TIFF OMITTED] T8170.006
    
    [GRAPHIC] [TIFF OMITTED] T8170.007
    
    [GRAPHIC] [TIFF OMITTED] T8170.008
    
    [GRAPHIC] [TIFF OMITTED] T8170.009
    
    [GRAPHIC] [TIFF OMITTED] T8170.010
    
    [GRAPHIC] [TIFF OMITTED] T8170.011
    
    [GRAPHIC] [TIFF OMITTED] T8170.012
    
    [GRAPHIC] [TIFF OMITTED] T8170.013
    
    [GRAPHIC] [TIFF OMITTED] T8170.014
    
    [GRAPHIC] [TIFF OMITTED] T8170.015
    
    [GRAPHIC] [TIFF OMITTED] T8170.016
    
    [GRAPHIC] [TIFF OMITTED] T8170.017
    
    [GRAPHIC] [TIFF OMITTED] T8170.018
    
    [GRAPHIC] [TIFF OMITTED] T8170.019
    
    [GRAPHIC] [TIFF OMITTED] T8170.020
    
    [GRAPHIC] [TIFF OMITTED] T8170.021
    
    Mr. Souder. Thank you very much for your testimony.
    We'll now go to Mr. Lehtinen. I know the Congresswoman had 
another event, that's one of the disadvantages of being in her 
home district. You can probably get anything you need to her in 
another forum.

                  STATEMENT OF DEXTER LEHTINEN

    Mr. Lehtinen. Thank you.
    Of course, I have the longer written comments submitted. 
I'd like to just focus on some observations I've developed over 
the years from serving in the State House/State Senate, U.S. 
Attorney, and then as the longest serving member of the South 
Florida Ecosystem Restoration Task Force.
    Among others, I do represent the Miccosukee Tribe of 
Indians of Florida, whose Everglades lands recognized by 
congressional act are north of Tamiami Trail, north, but 
contiguous to, Everglades National Park, and which by 
congressional statute were guaranteed to the Indians to be 
preserved in their natural state.
    It is the belief of the tribe and many others that 
commitment by Congress is not being met, that the Everglades 
north of Tamiami Trail is discriminated against, and does not 
receive the same recognition that south of Tamiami Trail does.
    My remarks are twofold. One would be some very specific 
comments about south Florida park management, and then some 
comments about Everglades restoration.
    What we need, perhaps, throughout the country, but 
especially with south Florida park management, and 
Superintendent Kimball and the others are actually making a 
real effort to change this bureaucratic approach, but we need 
the Park Service to be more people oriented, as well as take a 
broader ecosystem-wide approach beyond their own ownership 
lands.
    Especially in south Florida, where we have an international 
airport and a large urban area, and people coming from around 
the world so close to a million acres, if you think about it 
you don't really have that in many places in the country, we 
need to make a greater effort to get those people to visit 
Everglades National Park in an ecosystem consistent protection 
way, and that would mean, for example, rebuilding Flamingo, and 
rebuilding it on the congressional directive to do so, and, of 
course, funding it because of the cost that would be involved. 
But, if we don't have people visit our parks, and recognize 
what's the really treasure, Everglades National Park doesn't 
stand out, you know, it doesn't have the mountains and snow 
covered peaks, you have to visit a little bit to really come to 
understand it, and it's self defeating in the long run if we 
don't have people visit the parks.
    An example of this is another recommendation is to reopen 
the Chekika Springs area. It's in the middle of Everglades 
National Park, very close to our urban areas, accessible from 
S.W. 168 Street. It's marked on all of Everglades National 
Park's tourist literature as a camp site and as a picnic area. 
My brother and I used to hunt there when it was known as 
Mineral Springs in the 1950's and 1960's. It became Chekika 
State Park, named for the Indian leader who was killed there in 
one of the last of the U.S. Army/Native American battles in 
south Florida. And, as Chekika State Park we could visit it, 
turned over to Everglades National Park in the early 1990's as 
part of the Park Expansion Act, and almost immediately closed 
by Everglades National Park.
    And, I haven't been able to go there for 14 years. 
Superintendent Kimball tells me they are working on it, he 
hasn't been superintendent that long, and I believe him, that 
he wants to reopen it, but it was closed due to a hurricane in 
1992, and has stayed closed ever since, and many of us in south 
Florida have just thought, what kind of message does that send, 
that we'd have been better off keeping it as a State park than 
in turning it over to the National Park, because all else being 
equal we think of the national parks as--I don't want to insult 
out State parks, but, you know, better management, higher 
priority, more important.
    That's not true with Adirondack State Park, you know, in 
New York State and so forth, but that was our thinking. Most of 
us think we shouldn't have turned it over to Everglades 
National Park, we should have just kept it as a State enclave, 
and then we'd have access to it. I do think Dan is going to 
make an effort in that regard, to get Chekika open. It's a real 
sore point with some members of the public that could easily be 
solved, while it does take some money. But, other than money it 
could be solved.
    I'd like to note that another thing that happened there, 
you know, when Chekika was turned over, and the park expansion 
area condemned several houses, houses like this that were 
condemned from private owners as inconsistent with the 
ecosystem of the National Park were actually then reoccupied by 
the Park Service, and Park Service employees live in them, and 
they are used sometimes as, I think one is a fire station, and 
that's something that's hard for a member of the public to 
understand, that they are kicked out because they are 
inconsistent with the National Park, but then it ends up being 
home for National Park employees.
    Another point would be, Big Cypress, as Mr. Reed said, is a 
real gem. That was a real political achievement when it was 
declared a National Preserve. Exactly why it's a called a 
preserve instead of a park, you know, some limitations on the 
mineral rights or something like that. That's a little beyond 
me, I haven't studied it, but one of the points that I make as 
a member of the public is that you fight those political 
battles and you achieve a political accommodation. We did that 
with the Modified Water Deliveries Act in 1989, and with Big 
Cypress National Preserve.
    The Big Cypress National Preserve enabling legislation 
assures that the Preserve will be maintained, but it does 
guarantee certain public access to it, and the perception of 
hunters and others is that access has gradually eroded 
improperly and that the eventual goal is to exclude them from 
it.
    Now, I'm not talking about ATVs and those kinds of things 
should be in there. I think the Preserve has every right to use 
all of the regulations necessary to preserve the Preserve, 
small p and capital P, but there is a sense that the general 
orientation of the Park Service is always toward moving people 
out of park use. So, I don't make that accusation as much as I 
say that is an area that will be looked at a great deal by the 
public, both to maintain and honor the enabling legislation. 
That is to say, whatever the enabling legislation, what deal 
was cut there, let's not have a what's mine is mine and what's 
yours is negotiable kind of approach. Let's honor that enabling 
legislation and, ultimately, preserve the Preserve under that 
way.
    Another issue that there will be a lot of future publicity 
about deals with the Florida panther. Actually, the Florida 
panther that is either no longer in existence or will no longer 
be in existence within 10 years, the fact is the Florida 
panther was going into extinction due to natural breeding 
conditions. So, the Texas cougar was brought in and cross bred 
with the Florida panther, and that cat that now exists is less 
nocturnal and more aggressive than the Florida panther was, and 
it poses a threat to human beings. Cougars in the west have, 
when we were there 2 years ago on a visit in California, a 
camper was killed by a cougar, joggers have been killed by 
cougars. The current Florida cougar, the DNA different cat 
that's traveling under the name Florida panther, has been seen 
and observed electronically, at least Panther 124 that has a 
collar on it, goes into National Park Service camp grounds 
while there are campers there, and there was a plan developed 
under the Endangered Species Act that if these cats, 124 did it 
three times, you know, if they did it once you'd try to 
environally sensitize it, encourage it, you know, teach it not 
to come in there. But, if it ended up coming three times into 
the backyards of residents, you know, where there are small 
children, dogs, you know, out west the pattern is the cougar 
eats the dog first and then goes after people later, that if it 
happened three times it would be captively caught and bred, not 
executed, but moved and then after it--because it's got two 
cubs, pretty old cubs now with it that are not collared, but 
when the cougar violated that rule about 10 times they just 
abandoned that rule and have another rule, which is, eminent 
danger.
    And, residents in that area, some of whom are Miccosukee 
Indians, but most of whom are not Miccosukee Indians, will 
shoot that cougar, or Florida panther 124, or their kids won't 
be able to defend themselves and they'll be injured or killed, 
and either way that's bad for the Endangered Species Act, to 
say the least. We need a proactive approach instead of the 
ideological idea, OK, we want to save the panther, but the fact 
is, that Florida panther is gone. I mean, every biologist says 
the Florida panther either no longer exists or those few adults 
that remain will not exist within 10 years.
    We are not saying don't try to save it with a cross breed, 
don't have, you know, like this new animal, but one has to not 
allow the bureaucratic imperative where as a Government 
official you are supposed to be like on the side of the animal, 
be blinded, blind you to the fact that it's not the same 
animal, it doesn't have the same DNA, it's bred with a western 
cougar, and that produces different behavior patterns and some 
real fears on the part of the people who live in the loop road 
area.
    I don't view this kind of testimony as much as hostile to 
the Endangered Species Act as favorable. In other words, the 
way you are going to protect this act is by reaching 
accommodations, you know, is by balancing the human and the 
animal factors, but without that balancing we are going to end 
up with a prosecution in Federal Court for shooting a cougar 
that a jury is not going to convict on, because, you know, they 
are going to think you are entitled to protect your kids and 
that it isn't a Florida panther anyway.
    With regard to restoration, let me just say this. It's a 
broad topic. The dilemma in restoration is that all of us want 
to recognize the incredible progress of restoration. We've made 
a lot of progress. We are making a lot of progress in water 
quality, especially up north, especially as a result of 
litigation that has brought the State in line with respect to 
creating storm water treatment areas that protect for water 
quality.
    But, with respect to water quantity, that is to say hydro 
period, we have some real problems, and one of them is that 
Federal agencies do not take an ecosystem-wide view. The 
largest remaining part of the fresh water Florida Everglades, 
the Margery Stoneman Douglas River of grass is outside of 
Everglades National Park. Everglades National Park, all of it, 
is worth saving, but a substantial part of it is Florida Bay, 
well worth saving, but not fresh water Florida Everglades.
    The marine estuarian elements of Everglades National Park 
are well worth saving, but they are not the fresh water Florida 
Everglades. The fresh water Margery Stoneman Douglass slews are 
in the northern part of Everglades National Park, and the 
largest part of the remaining Florida Everglades is in tribal 
land and north up to the Everglades agricultural area that Mr. 
Reed indicated was a problem source of pollution, and in the 
Loxahatchee National Wildlife Refuge. That's the largest part 
of the Everglades. What we need is an approach that treats all 
of the Everglades equally, and I believe that's the mandate of 
the Water Resources Development Act 2000 CERP Comprehensive 
Everglades Restoration Plan.
    However, one of the questions, since you had spoken of 
earlier, I was going to throw in there, you were asking about 
personnel, those of us on the Task Force, the non-governmental, 
Federal Governmental members, have always wondered how much of 
this restoration money is actually funding Department of 
Interior personnel costs. I mean, most people think it goes to 
doing something on the ground, it goes to a project, but a lot 
of it seemingly goes to personnel costs, and we've never had 
that answer. Mr. Kimball is forthright and says something like 
he got 40 additional positions in the Park, but it would be 
defying the logic of organizational management to believe that 
40 additional Park employees are going to focus their attention 
on how to save the entire Everglades, most of which is not in 
the park.
    It's the same problem you had in the Vietnam War. You 
assigned Army officers to a civilian development project, and 
they might do a good job, but it doesn't get them their command 
time, their officer efficiency report doesn't come from another 
Army officer. I mean, we have serious problems in having the 
Federal agencies analyze the entire Everglades.
    The best current example is the so-called interim plans 
that have been adopted for the Cape Sable Seaside Sparrow in 
the western Everglades National Park, the western side, where 
the S12 structures are, just before you hit Big Cypress. Just 
figure you go west, and before you hit Big Cypress, south of 
Tamiami Trail there is the sub-population A of the Cape Sable 
Seaside Sparrow, so named because it was found in Cape Sable. 
Its declared habitat is nowhere near that part of the park, and 
it was never found there until it got blown there or moved 
there, and it's not a declared habitat.
    The least number of birds were there, Sub-pop A had 25 
singing males, they multiplied by 16. We have disputes about 
that, but that was their number.
    Starting in 1998, they said Endangered Species Act, an act 
in which the Government is the prosecutor, judge and jury, if 
you are not the decisionmaker, if you are not an agency 
official in the ESA you lose, that's the way the ESA works, 
Government wins, outside people lose.
    The determination was made that water had to be kept lower 
south of Tamiami Trail, a move away from the surf-adopted 
Natural System Model. This is the model submitted to Congress 
that said this is, we are going to restore the Everglades, 
according to NSM, Natural System Model, we want lower waters in 
the park south of the trail, higher waters north of the trail. 
We get those by blocking the 12 structures that let water 
through Tamiami Trail, lower on the south, higher on the north, 
all in the name of restoration.
    The current position is, we cannot move toward restoration 
goals, because the Endangered Species Act won't let us do it. 
The point is, the Everglades has been altered, we all say, by 
man-made action. To return to its natural condition means that 
something that moved, you know, altered environments are not 
dead environments, they are different environments, something 
moves in, you know, that wasn't there naturally. Well, when you 
start to restore, for example, you have certain trees grow up 
in an altered environment, and when you restore water flow the 
first thing you start to see is those trees die. And, if you 
stand there in a time-lapse photography, you might say we are 
really doing a lot of damage because this nice green area is 
now looking brown. Well, that's natural, we are getting it back 
to what it was.
    Well, there's birds moved in to low water, and we are being 
told we can't go to natural levels of water because of the 
bird. In the meantime, the undeclared habitat in the south is 
protected, the declared habitat is the snail kite north of 
Tamiami Trail is being flooded with loss of tree islands 
according to the Corps of Engineers at the rate of more than 
eight tree islands a year, and more than 246 acres a year due 
to the flooding. Tree islands, as you might guess, I don't 
think I would need to explain it, but tree islands are these 
areas that create the real diversity in the Everglades. I mean, 
that's where you have some of your smaller mammals and, you 
know, your alligators come on and eat some rats, and whatever 
happens there, you know, and that's where you get your 
diversity. That's what all the scientists say, if you go to no 
tree islands then you have a very non-diverse, non-natural 
Everglades. We've lost more than almost half of the tree 
islands since the Central and South Florida Project went into 
existence, this is a U.S. Government figure, and since this new 
1998 block the water to save this Cape Sable's 25 singing males 
we've lost more than eight tree islands a year north of the 
trail, and 246 acres.
    Now, if that were Federal property, and not State 
Everglades or Indian land, it would be called a crisis. But, 
Tamiami Trail is the boundary line, so it's not of concern much 
to the Federal Government.
    We have, in fact, this plan adopted in 1998 that was 
supposed to save the Cape Sable Seaside Sparrow, now has found 
no Cape Sable Seaside Sparrows, or one Cape Sable Seaside 
Sparrow, meaning a 90 percent reduction.
    Now, in high school science fair classes you say, here's a 
condition, here's my hypothesis, if I block this water my birds 
are going to prosper, and then your chart goes the other way, 
down to no birds at all, you have to say my hypothesis was 
wrong, to get by your high school science fair project, but you 
don't have to say that when you are Federal scientists, because 
you own the scientific process. You just say, so what.
    I mean, that's the problem we have there. We are being 
moved away from restoration goals by a lack of system-wide 
approach. We can say--they can say the Endangered Species Act 
forces them to do it, but the fact of the matter is, if they 
wanted to do something else they'd say the Endangered Species 
Act forces us to let the water through because the snail kite 
is being killed north of Tamiami Trail. You just pick your 
bird, that's what you do, the way the Endangered Species Act 
works now.
    A second and third area related are Modified Water 
Deliveries adopted in 1989, supposed to be done in 1996, the 
plan as approved by Congress adopted the act in 1989, the 
General Design Memorandum approved in 1992 by Congress and the 
Corps submitted it. The Park Service didn't like that plan. It 
wanted to condemn more than 500 residents on the edge of the 
park outside of the park expansion area, where the act said 
they will be protected. Two different plans to do that were 
found unlawful in court, and eventually Congress let them have 
20 percent of those residents and protected the other 80.
    In the meantime, that failure to adopt that plan means you 
can't move the water over through N.E. Shark River Slew, and 
you are still backing water up into Water Conservation Area 3, 
doing serious damage to the historic Everglades, and you have 
the following circumstance now, the amount of water that 
ModWaters was supposed to move, and that's a pre-CERP project, 
and in 2000 Congress said they want that pre-CERP project done 
before we do the CERP reconnecting projects, and you can't 
raise Tamiami Trail, word of 2000 says you cannot raise Tamiami 
Trail until you finish ModWaters. Well, that legislation 
doesn't mean too much to us in the field. We now have adopted a 
model, we being the Federal team here, that moves, not only 
twice the amount of water that ModWaters called for, but moves 
more water than CERP calls for, in order to justify building 
two bridges on Tamiami Trail, which word of 2000 says you can't 
do.
    Don Young from Alaska already sent them a letter, said it's 
unlawful, you can't do it without congressional authorization. 
They are going to adopt that proposal anyway, drop it in your 
lap, and say you wreck the Everglades if you won't spend the 
money, which is now four and five times the original projection 
of the ModWaters Project.
    The Indian tribe and others of us look at this and say, 
long-term goals are fine, but when you are always making a deal 
and then breaking that deal in order to slide in your 
personalized view of what's better for the Everglades, like 
let's move more than CERP authorized water, twice ModWaters 
authorized water, under the label ModWaters, what you do is, 
you just stop the projects, you slow them down, you cause 
serious problems in the northern part of the Everglades.
    Now, this is the part of Everglades restoration that 
concern us. In a longer-term view, we'd list all the successes, 
as Mr. Reed has. There are successes. This is worth funding. 
The only dilemma someone like I have in criticizing 
restoration, and I've done this many times, is going to 
Washington and saying, look, what we want you to do is more 
oversight, we want you to get control, but what we don't want 
you to do is divert these funds. Everglades restoration is 
worth it, the fact that we have some problems and disagreements 
in implementing it should not lead to the conclusion, well, 
let's cut that off and dump it in, you know, some project in 
Wyoming.
    And, some of us are reluctant to criticize the failed 
elements of Everglades restoration, or the difficult elements, 
because we are afraid, you know, it will be used as ammunition 
against restoration overall.
    I like to think that won't happen, that the overall value 
of restoration, and even the disagreements between elements 
here, I mean, we think the Cape Sable Seaside Sparrow is a 
scandal, but the fact of the matter is, if that thing gets 
worked out, and we'll be hands in hands with the people who we 
think messed that up radically, I mean, you know, we each have 
our viewpoints. We argue they are wrong, they say we are wrong, 
that's all within a team that wants to see the Everglades 
restored, and we want you to keep spending the money, just put 
some strings on it that assure you that it's being spent the 
way you want it to be spent, but don't reach the conclusion 
that it's not worthy to fund these projects, because the fact 
of the matter is, I think you have in south Florida about as 
good a national and international interest, and at least a, 
what do you call those projects, when you call them a local--
well no, I mean, you know, a project that has no real national 
value, I mean, this, the only arguments down here are not over 
its national value, it's just over how to do it. And, when you 
are arguing over how to do it, that's a worthy argument no 
matter which side you are on.
    Appreciate your time, and you've been here quite a while, I 
would not have predicted it, that you'd be here so long.
    Thank you very much.
    [The prepared statement of Mr. Lehtinen follows:]

    [GRAPHIC] [TIFF OMITTED] T8170.022
    
    [GRAPHIC] [TIFF OMITTED] T8170.023
    
    [GRAPHIC] [TIFF OMITTED] T8170.024
    
    [GRAPHIC] [TIFF OMITTED] T8170.025
    
    [GRAPHIC] [TIFF OMITTED] T8170.026
    
    [GRAPHIC] [TIFF OMITTED] T8170.027
    
    [GRAPHIC] [TIFF OMITTED] T8170.028
    
    [GRAPHIC] [TIFF OMITTED] T8170.029
    
    [GRAPHIC] [TIFF OMITTED] T8170.030
    
    [GRAPHIC] [TIFF OMITTED] T8170.031
    
    [GRAPHIC] [TIFF OMITTED] T8170.032
    
    [GRAPHIC] [TIFF OMITTED] T8170.033
    
    [GRAPHIC] [TIFF OMITTED] T8170.034
    
    [GRAPHIC] [TIFF OMITTED] T8170.035
    
    [GRAPHIC] [TIFF OMITTED] T8170.036
    
    [GRAPHIC] [TIFF OMITTED] T8170.037
    
    [GRAPHIC] [TIFF OMITTED] T8170.038
    
    [GRAPHIC] [TIFF OMITTED] T8170.039
    
    [GRAPHIC] [TIFF OMITTED] T8170.040
    
    [GRAPHIC] [TIFF OMITTED] T8170.041
    
    [GRAPHIC] [TIFF OMITTED] T8170.042
    
    Mr. Souder. Well, thank you.
    We have an agreement to leave this room in just a few 
minutes. I want to make a couple comments and ask just a couple 
questions.
    First off, this wouldn't happen in Washington, we'd do this 
5-minute rule and bang, you know, people come in and out, and 
you are called, and that's why I wanted to have a full 
statement, because it just doesn't happen in a record to have 
those kind of things. So, I think that Mr. Lehtinen has raised 
an illustration of one of the challenges we have in the 
National Park Service, and that is that things that happened, 
and Mr. Reed did a similar thing, things that happened outside 
the park are having bigger and bigger impacts on the parks, 
whether it's invasive species, whether it's--it was fascinating 
to talk about the salt water and the fresh water.
    We vacation once a year over at Sanibal Island, and as we 
were coming down the West Coast the front page of the Fort 
Myers newspaper is about the overflow in Lake Okeechobee, going 
into the river, going into Fort Myers, which has apparently 
caused a whole bunch of dead fish over in Ding Darling, and is 
a mess over in Sanibal. In fact, what happens to this water? 
How do you manage the water? The north and south, this whole 
question of endangered species and shifting habitat, and in the 
Park Service once you get into the details and you are inside, 
my first exposure on the Parks Committee was, do you preserve 
the cyclorama at the Gettysburg Battlefield because it's a 
national historic structure sitting on the point of land where 
it is arguably part of the reason, if not the major reason, we 
have the Gettysburg Battlefield, which was the highland point 
and people were parking all over it, and what a mess to try to 
sort out, because is it the building or the historic structure? 
What happens in a park at Concord and Lexington, where we were 
looking at, should the battle road look like the battle, or 
what if you brought into the Park Service buildings from the 
1840's and 1880's and represented their times in history, and 
then the trees are planted at Presidio and on this trail that 
weren't there, that, in effect, don't give you the historic 
feeling of the park. But, now people bike along them, and think 
it would be a travesty if you tore out the trees that are in 
the Gettysburg Battlefield, the peach orchard isn't in the 
right place, I mean there we made the decision to get it more 
like the battlefield. But, that hasn't been done on the 
battlefield road, and it hasn't been done at the Presidio.
    These are tough choices when Federal laws run into Federal 
laws, and we have to have, in my opinion, to some degree what 
the Park Service is doing with core ops, in trying to identify 
what are the priorities within the parks, how do you decide 
what your core mission was, your secondary mission, it's a 
thing that private business has to do all the time, in that, 
how do we force these tradeoffs, and how do we have an open 
debate?
    I can tell you how it is in Congress. The first thing is, 
each one of us are so overwhelmed in our own district, the idea 
of a fight in somebody else's district means you get your head 
down and you go, local guy, handle your local fight, then come 
to us. The problem is, what about if it crosses Members' 
districts, like in Florida, or it's a project of national 
significance, how much do you defer to which local Congressman, 
when you are telling me this is going all the way up to, say, 
Foley and Weldon's district and coming all the way down through 
this district, how do you resolve something like that?
    The usual House solution, by the way, isn't to let the 
Senate decide. We figure out how to meddle anyway. But, that 
was a good discussion for me to hear some of those kind of 
tradeoffs.
    I do have a very particularized question, Mr. Reed. One of 
the things that has been very interesting in these hearings is 
to have people who have a national perspective for a number of 
years, that former park superintendents, people who have been 
in the different administrations, and to kind of get an 
overview of what we are facing now versus what you face, 
clearly, being efficient in wildlife and in multiple positions 
you've seen different challenges. You've suggested some of 
that. I'd be interested in hearing how you would better 
integrate, not only in the Park Service, but with the--I mean, 
we all know that the names, what's a preserve, what's a 
recreation area, we've become so confused inside the Park 
Service, but let's not even talk about just Park Service, how 
does this interrelate in a system with other Federal agencies, 
BLM, Army Corps, Fish and Wildlife, when clearly in the south 
Florida system they are completely integrated. And then also, 
if you could talk a little bit, it is extraordinary the amount 
of time and your personal life you've invested in starting 
things like Yosemite Fund, Friends of Acadia, and so on, how 
can we, because clearly the Federal Government alone, no matter 
how much we plus this up, isn't going to meet the needs of an 
expanding system, how can we get the next generation, and do 
you see this happening, of whether it's Hollywood money, music 
money, soft, kind of the high tech money, the computer type 
money, the new wealth in America, the kind of older 
establishment wealth looked at our natural lands, now many of 
the new people seem to think, well, the Federal Government is 
going to take over this, and they'll kind of run to the project 
of the moment, how can we get the romance of the parks back? 
How can we capture some of the new people, adopt different 
parks, how do we do this?
    Mr. Reed. That's a good question, Mr. Chairman.
    At Acadia, besides the Rockefeller money, there was 
substantial grants from the heir of Campbell Soups, and other 
associates who had made more recent fortunes on the market or 
through innovative investments.
    Secretary Babbitt was there a day when I joined him. The 
Park received a check for $12 million, entirely privately 
raised among the summer residents, northeast, southwest, and 
the Rockefeller dominion.
    We started slowly at Yosemite, but I haven't got the 
figures anymore, but the figures of what it raises per year, 
Bill Lane, former publisher of Sunset Magazine, involved me, 
Bill was a great personal friend, former Ambassador, dynamic 
lover of national parks, and I'm sure he was at probably one of 
your hearings. If not, you should invite him to testify, even 
though he's in his late 80's, he is still a most dynamic 
supporter of the System and the Service.
    Yellowstone, the same thing. Mike Finley was 
Superintendent, and he was desperate for funding, for a whole 
bunch of different projects that wasn't going to be possible, 
and he put together a group from all over the country, plus an 
astonishing group of people just outside the park between the 
northern boundary and Bozeman, and at the south to Grand Titan 
and Jackson, and they are well underway. I'm no longer a member 
of the foundation, because I found it difficult to leave 
Florida twice a year to attend meetings. I'm beginning to 
rethink that one, and get to Yellowstone.
    Everglades desperately needs an increase in funding for a 
whole bunch of different projects, which are not covered by 
Federal appropriations.
    Yes, your question is good, how do we get the Gates', the 
``Gates' '' of this world, to step forward with these vast 
fortunes that have been made in the last 25 years and take an 
interest in the National Park System?
    I do think there's going to be a continuing responsibility, 
regardless of the pressures on the budget, for the Federal 
Government, for the Congress to step up, and honestly assume 
the mantle and responsibility of managing, and overseeing, and 
funding the National Park System.
    1971 to 1977, my period, was a period where Rogers Morton 
was Secretary for four of those years, and came from the 
Congress, Congressman from the Eastern Shore of Maryland, the 
last Eastern Secretary of Interior, followed in rapid order by 
two more Western Secretaries who I served, and the overwhelming 
feeling in the Nixon/Ford administration was, expansion, save 
that land now or we'll lose it.
    That certainly was true in Big Cypress, it was certainly 
true going through the Nixon/Ford administration, into the 
Carter administration, on the Alaska Lands Act, which basically 
the lands that were withdrawn by President Carter, those maps 
were drawn by my staff work in 1971 to 1977, we handed over to 
Secretary Andrews a complete set of maps and a complete set of 
EISs, and I would be very honored, I have one of the pens from 
President Carter when he signed the act, and I had the great 
privilege of working with Members of the House and Senate to 
see that act passed.
    So, that was a period of growth, enormous growth. We 
probably could be criticized validly for understating the 
amount of money and manpower needed to manage the parks full 
time after acquisition or removal from National Forest or BLL 
lands, the creation of the new Park System. I accept that. We 
picked a basic number of manpower positions and costs to open 
the park initially and get planning underway.
    I think the Congress knew perfectly well, the 
Appropriations Committee knew perfectly well, because I always 
responded faithfully. Mr. Secretary, are you going to need more 
manpower in years to come? And the answer was, yes. This is the 
minimum amount of manpower needed to open these places and 
protect them.
    When you have your hearings in Alaska, you'll find that 
you've got a skeleton crew still on the land there, but in 
high-use parks, Yellowstone, Grand Teton, Yosemite, the 
Congress has known from day one that the needs for additional 
manpower were real.
    Now, there were surprises all along the line. Former 
Assistant Secretary Stan, professor of ecology at University of 
Michigan, left me a letter on my desk when I was confirmed in 
May 1971, I'm leaving you a bunch of problems. And, I promised 
to myself I wasn't going to do that to my successor, and I did 
it.
    Among them was, timber companies that were ravishing the 
headwaters of Redwood Creek, and we were going to lose the 
Avenue of Tall Trees in Redwood Creek, which was one of the 
most expensive purchases in America's history. Nobody told me 
that the grizzly bears were still being fed garbage in 
Yellowstone National Park, and I would be on the front pages of 
the American newspapers for the next 5 years taking on the 
Craighead brothers, who were photogenic, biologists, well-known 
researchers in Yellowstone, and I had a liberal arts degree 
from a small college, community college in Hartford, CT, and 
even though I was supported by three of the greatest ecologists 
in America I had to destroy over 180 bears that could not 
survive in the wild, and who had become totally accustomed to 
eating human garbage. And, I had to ask the Appropriations 
Committee for millions of dollars to make every garbage can 
inside the park and outside the park in the Forest Service 
areas bear proof, so that bears could not continue to eat human 
garbage.
    Dr. Starker Leopold of California Berkeley said, ``Once a 
grizzly bear gets into human garbage it's exactly like 
mainlining one of the most powerful drugs in the world. He'll 
never forget the glorious good taste of human garbage, and 
he'll kill to get it.''
    One of the happiest moments of my life is to see that there 
are 525 grizzly bears in Yellowstone National Park, every 
corner of Yellowstone Park that we agreed upon in the 1970's, 
if they were filled with bears we could take the bear off the 
endangered species list. We've arrived at that, there are over 
700 bears between the park and the National Forest lands. But, 
that was a cruel period in my life. Those are tough decisions.
    My distinguished friend, Mr. Lehtinen, and I do not agree 
on the Cape Sable Sparrow, and I will furnish the Staff 
Director with my response, but I do agree, heartily agree, that 
our disagreements are minor compared to our agreement on the 
continued need for congressional oversight and support to 
restore the Everglades.
    Boy, he made a powerful statement, and that's what I'd like 
to leave with you, is the vast majority of the people of this 
State, all congressional districts, every poll shows that the 
people of Florida are willing to spend, a Governor putting in a 
$1.5 billion, committing $1.5 billion, that's on top of $200 
million a year for the last 4 years extra, to acquire lands and 
try to get this system straight. It is, the system is a mess.
    Mr. Lehtinen is right, we've got too much water in the 
upper Everglades. Where is it coming from? It's coming from the 
agricultural area, the vast 500,000 acres of sugar cane, that 
every time it rains is pumped directly into the upper 
Everglades, it floods it, and we have no way to get it out 
except through the Modified--we might disagree, we do disagree, 
on whether the present Modified Water Delivery Plan is a better 
plan than the one originally proposed. Yes, we would have 
gained time had we done it his way, we are getting, in my 
opinion we are getting a better one by waiting. Congress has 
funded it. We are underway. We are digging out there right now, 
the Corps at last is doing something in restoration.
    We should be using Conservation Area 3B to get rid of a lot 
of water that's drowning the tree islands. I've been to the 
tree islands. I went with the representatives of the Miccosukee 
Tribe in airbus to those islands. I wept as a member of the 
Water Board. I served 14 years on the South Florida Water 
Management District Board. I didn't serve just 2 days a month, 
I often worked 11, 12 days a month. I know what damage has been 
done to the system.
    But, I also have, perhaps, different ideas on how we can 
alleviate the problems that we face right now.
    I need to get on the road, because I'm going to hit U.S. 
No. 1 and I-95 and the Turnpike at the height of the Florida 
maddest period of the day, which starts in about--started about 
an hour ago, but it will get worse. I just want to reiterate to 
you and the members of your staff the deep appreciation we all 
have in this room that you've undertaken this mission, and God 
bless you.
    Mr. Souder. I want to thank both of you for your testimony. 
If you have any additional materials you want to give us, we 
may have some additional questions provided through print.
    Thank you very much.
    The subcommittee stands adjourned.
    [Whereupon, at 4:30 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T8170.051

[GRAPHIC] [TIFF OMITTED] T8170.052

[GRAPHIC] [TIFF OMITTED] T8170.053

                                 <all>

</pre></body></html>
